<html>
<title> - REVIEWING FEDERAL AND STATE PANDEMIC SUPPLY PREPAREDNESS AND RESPONSE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                  REVIEWING FEDERAL AND STATE PANDEMIC 
                   SUPPLY PREPAREDNESS AND RESPONSE

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON OVERSIGHT, MANAGEMENT,
                           AND ACCOUNTABILITY

                                AND THE

                SUBCOMMITTEE ON EMERGENCY PREPAREDNESS,
                         RESPONSE, AND RECOVERY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 14, 2020

                               __________

                           Serial No. 116-76

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
                                     

       Available via the World Wide Web: http://www.govinfo.gov/

                               __________
                               
                               
                   U.S. GOVERNMENT PUBLISHING OFFICE                    
43-189 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           John Joyce, Pennsylvania
Elissa Slotkin, Michigan             Dan Crenshaw, Texas
Emanuel Cleaver, Missouri            Michael Guest, Mississippi
Al Green, Texas                      Dan Bishop, North Carolina
Yvette D. Clarke, New York           Jefferson Van Drew, New Jersey
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

       SUBCOMMITTEE ON OVERSIGHT, MANAGEMENT, AND ACCOUNTABILITY

              Xochitl Torres Small, New Mexico, Chairwoman
Dina Titus, Nevada                   Dan Crenshaw, Texas, Ranking 
Bonnie Watson Coleman, New Jersey        Member
Nanette Diaz Barragan, California    Clay Higgins, Louisiana
Bennie G. Thompson, Mississippi (ex  Jefferson Van Drew, New Jersey
    officio)                         Mike Rogers, Alabama (ex officio)
                Lisa Canini, Subcommittee Staff Director
            Katy Flynn, Minority Subcommittee Staff Director
                                 ------                                

     SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND RECOVERY

               Donald M. Payne Jr., New Jersey, Chairman
Cedric L. Richmond, Louisiana        Peter T. King, New York, Ranking 
Max Rose, New York                       Member
Lauren Underwood, Illinois           Dan Crenshaw, Texas
Al Green, Texas                      Michael Guest, Mississippi
Yvette D. Clarke, New York           Dan Bishop, North Carolina
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
              Lauren McClain, Subcommittee Staff Director
          Diana Bergwin, Minority Subcommittee Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Xochitl Torres Small, a Representative in Congress 
  From the State of New Mexico, and Chairwoman, Subcommittee on 
  Oversight, Management, and Accountability:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Dan Crenshaw, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Oversight, 
  Management, and Accountability:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Chairman, Subcommittee on 
  Emergency Preparedness, Response, and Recovery:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10

                               Witnesses

Mr. W. Craig Fugate, Senior Advisor, Blue Dot Strategies, and 
  Former Administrator, Federal Emergency Management Agency:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Mr. Mark Ghilarducci, Director, Office of Emergency Services, 
  Governor's Office, California:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Mr. Chris P. Currie, Director, Homeland Security and Justice, 
  U.S. Government Accountability Office:
  Oral Statement.................................................    24
  Prepared Statement.............................................    25

 
 REVIEWING FEDERAL AND STATE PANDEMIC SUPPLY PREPAREDNESS AND RESPONSE

                              ----------                              


                         Tuesday, July 14, 2020

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Oversight, Management, and Accountability, 
                                                    and the
     Subcommittee on Emergency Preparedness, Response, and 
                                                  Recovery,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 12:02 p.m., 
via Webex, Hon. Xochitl Torres Small [Chairwoman of the 
Subcommittee on Oversight, Management, and Accountability] 
presiding.
    Present: Representatives Torres Small, Payne, Barragan, 
Rose, Underwood, Clarke, Thompson, Crenshaw, Higgins, Guest, 
and Bishop.
    Also present: Representative Jackson Lee.
    Ms. Torres Small. The joint hearing will come to order. Let 
me begin by thanking everyone for joining us today. I hope that 
my colleagues, our witnesses, and viewers are staying healthy 
and safe.
    I want to thank Chairman Payne and Ranking Member King of 
the Emergency Preparedness, Response, and Recovery Subcommittee 
for coming together with Ranking Member Crenshaw and me to hold 
this hearing.
    We are here to discuss Federal and State efforts to procure 
critical supplies in response to the coronavirus pandemic.
    First, I want to acknowledge that the Federal Emergency 
Management Agency, FEMA, which was put in charge of the Federal 
Government's response, was asked to testify today.
    While FEMA is not here today, I understand that 
Administrator Gaynor plans to appear before the full committee 
later this month. I am pleased to hear this because it is vital 
that we work together to address this challenge. I look forward 
to meeting with Administrator Gaynor in person soon, and 
hearing what our witnesses have to share today to inform that 
discussion.
    There is no denying that the coronavirus pandemic has 
presented unparalleled challenges. One of the greatest 
challenges has been securing adequate testing supplies and 
personal protective equipment, or PPE, such as gowns, gloves, 
surgical masks, and N95 respirators.
    A surge in global demand for these supplies, most of which 
are produced overseas, caused severe shortages, especially for 
those on the front lines.
    In response, the Federal Government distributed the limited 
supplies in the Strategic National Stockpile and expedited PPE 
shipments by airlift to distributors' existing customers rather 
than to States directly. This caused States to find their own 
supplies to distribute to areas with greatest need.
    As a result, competition within the United States 
intensified as States began competing against each other, the 
Federal Government, and other buyers around the world. This 
competition for limited resources drove up prices and attracted 
new brokers into the marketplace that were inexperienced and 
unreliable.
    Buyers with less purchasing power, such as smaller States 
and rural areas, like those here in the district I serve in New 
Mexico, had greater difficulty obtaining supplies.
    Some States and major hospitals have been able to replenish 
supplies, but reports of shortages among health care workers, 
especially those in nursing care settings, still exist.
    Demand for supplies is only expected to grow as several 
States continue to experience rapidly rising rates of new 
infections and hospitalizations. Public health officials also 
predict that a second wave of infections will come this fall.
    We must also consider the PPE needs of non-health care 
workers if we want to successfully reopen the economy, which we 
all do.
    Therefore, it is important to take this opportunity to 
discuss lessons learned from the past 6 months to improve the 
procurement and distribution of critical supplies in the 
future.
    This includes revisiting the appointment of FEMA as the 
lead of the Federal response effort in mid-March, more than 6 
weeks after the White House Coronavirus Task Force was formed, 
a delay that unquestionably put the agency at a disadvantage of 
executing such a formidable task.
    FEMA is well-versed in responding to disasters, but it has 
struggled to procure supplies in the wake of multiple disasters 
in the past.
    In a joint subcommittee hearing last May, we discussed 
long-standing challenges with FEMA's process for vetting 
vendors and overseeing disaster contracts awarded by State and 
local governments.
    I am concerned that FEMA, once again, awarded contracts to 
vendors who could not deliver during the pandemic. In one case, 
FEMA canceled a $55 million contract for 10 million N95 
respirators after the company, which conducts tactical training 
and has no history of procuring medical equipment, failed to 
deliver the masks.
    In another case, FEMA warned States not to use testing 
equipment it acquired under a $10 million contract because it 
was believed to be contaminated. The company that produced the 
equipment was formed just 6 days before FEMA awarded the 
contract.
    I also worry about whether pandemic response activities 
have already fatigued FEMA's historically understaffed 
contracting work force, which is concerning since we are only 1 
month into the 2020 hurricane season and entering an active 
wildfire season.
    I look forward to hearing from our witnesses today on their 
views of FEMA's role in leading the Federal response effort and 
how we can work together to improve the procurement and 
distribution of critical pandemic supplies.
    Thank you again for joining us today.
    Since we have a number of Members joining today, I will be 
vigilant in watching the clock and ask that my colleagues be 
mindful of the time available for statements and questions.
    [The statement of Chairwoman Torres Small follows:]
              Statement of Chairwoman Xochitl Torres Small
                             July 14, 2020
    We're here to discuss Federal and State efforts to procure critical 
supplies in response to the coronavirus pandemic. First, I want to 
acknowledge that the Federal Emergency Management Agency (FEMA), which 
was put in charge of the Federal Government's response, was asked to 
testify today.
    While FEMA is not here, I understand that Administrator Gaynor 
plans to appear before the full committee later this month. I look 
forward to meeting with Administrator Gaynor in person soon, and 
hearing what our witnesses have to share today to inform that 
discussion.
    There is no denying that the coronavirus pandemic has presented 
unparralleled challenges. One of the greatest challenges has been 
securing adequate testing supplies and personal protective equipment--
or PPE--such as gowns, gloves, surgical masks, and N95 respirators. A 
surge in global demand for these supplies--most of which are produced 
overseas--caused severe shortages, especially for those on the front 
lines.
    In response, the Federal Government distributed the limited 
supplies in the Strategic National Stockpile, and expedited PPE 
shipments by airlift to distributors' existing customers rather than to 
States directly. This caused States to find their own supplies to 
distribute to areas with greatest need. As a result, competition within 
the United States intensified as States began competing against each 
other, the U.S. Government, and other buyers around the world.
    The competition for limited resources drove up prices and attracted 
new brokers into the marketplace that were inexperienced or unreliable. 
Buyers with less purchasing power, such as smaller States and rural 
areas like those here in my district in New Mexico, had greater 
difficulty obtaining supplies. Some States and major hospitals have 
been able to replenish supplies, but reports of shortages among health 
care workers--especially those in nursing care settings--still exist.
    Demand for supplies is only expected to grow as several States 
continue to experience rapidly rising rates of new infections and 
hospitalizations. Public health officials also predict that a second 
wave of infections will come this fall. We must also consider the PPE 
needs of non-health care workers if we want to successfully re-open the 
economy.
    Therefore, it is important to take this opportunity to discuss 
lessons learned from the past 6 months to improve the procurement and 
distribution of critical supplies in the future. This includes 
revisiting the appointment of FEMA as the lead of the Federal response 
effort in mid-March, more than 6 weeks after the White House 
Coronavirus Task Force was formed--a delay that unquestionably put the 
agency at a disadvantage of executing such a formidable task.
    FEMA is well-versed in responding to disasters, but it has 
struggled to procure supplies in the wake of multiple disasters in the 
past. In a joint subcommittee hearing last May, we discussed long-
standing challenges with FEMA's process for vetting vendors and 
overseeing disaster contracts awarded by State and local governments. 
I'm concerned that FEMA once again awarded contracts to vendors that 
could not deliver during the pandemic.
    In one case, FEMA canceled a $55 million contract for 10 million 
N95 respirators after the company--which conducts tactical training and 
has no history of producing medical equipment--failed to deliver the 
masks. In another case, FEMA warned States not to use testing equipment 
it acquired under a $10 million contract because it was believed to be 
contaminated. The company that produced the equipment was formed just 6 
days before FEMA awarded the contract.
    I also worry about whether pandemic response activities have 
already fatigued FEMA's historically understaffed contracting 
workforce, which is concerning since we are only 1 month into the 2020 
hurricane season and entering an active wildfire season. I look forward 
to hearing from our witnesses today on their views of FEMA's role in 
leading the Federal response effort and how we can improve the 
procurement and distribution of critical pandemic supplies.

    Ms. Torres Small. The Chair now recognizes the Ranking 
Member of the Subcommittee on Oversight, Management, and 
Accountability, the gentleman from Texas, Mr. Crenshaw, for an 
opening statement.
    Mr. Crenshaw. Thank you, Chairwoman Torres Small and 
Chairman Payne. I am pleased to participate in this hearing 
today.
    Today's hearing is to examine matters related to the 
management and distribution of medical supplies in response to 
the pandemic. This topic is of the utmost importance for our 
country and to each of our States.
    My home State of Texas recently experienced an uptick in 
reported cases, as did 33 other States. Many are holding 
steady, but only 3 States saw a decline in the number of cases 
last week.
    As we see cases increasing, we must ensure that our health 
care providers and first responders have the equipment they 
need to provide treatment while protecting themselves and 
slowing the spread of the virus.
    The size and scope of this response effort is 
unprecedented. We have not experienced anything like this in 
the history of our country. Some experts have compared this to 
the outbreak of the Spanish flu in 1918, but today we are a 
much more mobile society, and our economy and supply chain are 
much more interconnected with the world.
    While we are using many of the same tools, such as social 
distancing, some quarantining, many of the supplies that 
doctors and hospitals use today to combat the virus are not 
manufactured in the United States.
    Because many of our medical supplies and pharmaceuticals 
are not produced domestically, we are competing with the rest 
of the world for the supplies we need to treat our people. 
Countries like China have a stranglehold on our medical supply 
chain. We must take steps to regain control of the supply chain 
from the Communist regime. This is especially important during 
a global pandemic.
    To make matters worse, there is evidence that China 
deliberately misled the world about the extent of the outbreak 
in that country while hoarding critical medical supplies and 
decreasing exports to the rest of the world.
    If we had known the true number of individuals infected in 
China, we would have quickly realized that our stockpile of 
ventilators, N95 respirators, and other medical supplies were 
not going to be enough to meet the demand and been able to act 
earlier to meet the projected need.
    While we may have lost critical time at the beginning of 
the pandemic, once we began to understand the potential scope 
of the outbreak in this country, the administration took steps 
to increase the availability of necessary supplies.
    FEMA was put in charge of distribution of medical supplies 
rather than HHS because of its logistical capabilities and 
relationship with State and local emergency managers. FEMA 
established Project Airbridge to find medical supplies and 
quickly get them to where they were needed.
    The President used the Defense Production Act to encourage 
U.S. companies to join the fight against COVID-19 by altering 
their operations to provide for critical medical supplies.
    Ford, GE, and General Motors stepped up to assist with 
manufacturing ventilators.
    3M doubled its production of N95 masks to 100 million a 
month.
    Bauer, a U.S. company that makes hockey equipment, stopped 
making helmet visors and started producing face shields for 
medical professionals.
    When wearing a cloth face covering became a way of life for 
millions of Americans, MyPillow began producing masks to meet 
the demands of Americans' needs.
    After it became apparent that hand sanitizer was in short 
supply, many distillers, like Whitmeyer's in my district in 
Houston, converted from making alcohol for consumption to 
producing hand sanitizer.
    American companies are not just meeting PPE and medical 
equipment demand, but looking forward. In a month-and-a-half, 
Houston's Medistar founder, Monzer Hourani, took his idea for a 
filter that can kill COVID from an idea to a prototype to a 
tested and proven concept that kills 99.8 percent of the virus.
    These are just a few examples of U.S. companies stepping up 
to support our country during the crisis. Many other companies 
have donated portions of their profits to aid in the fight 
against COVID.
    As we continue to learn more about this virus and the best 
ways to prevent its spread, we must continue to build our 
stockpile of medical supplies and ensure that our health care 
providers and first responders have the tools they need. I look 
forward to hearing from our witnesses today on the best ways to 
do that.
    I yield back.
    [The statement of Ranking Member Crenshaw follows:]
                Statement of Ranking Member Dan Crenshaw
                             July 14, 2020
    Thank you, Chairwoman Torres Small and Chairman Payne. I am pleased 
to participate in this virtual joint hearing today, but I continue to 
have concerns about hearings not being held in person. A great deal is 
lost in translation when we are not all together in one room discussing 
these important issues.
    Today's hearing is to examine matters related to the management and 
distribution of medical supplies in response to the pandemic. This 
topic is of the utmost importance to our country and to each of our 
States. My home State of Texas recently experienced an uptick in 
reported cases--as did 33 other States--others are holding steady, and 
only 3 States saw declines in the number of cases last week.
    As we see cases increasing, we must ensure that our health care 
providers and first responders have the equipment they need to provide 
treatment while protecting themselves and slowing the spread of the 
virus.
    The size and scope of this response effort is unprecedented. We 
have not experienced anything like this in the history of our country. 
Some experts have compared this to the outbreak of the Spanish flu in 
1918. But today, we are a much more mobile society, and our economy and 
supply chain are much more interconnected with the world. While we are 
using many of the same tools, such as social distancing and 
quarantining, many of the supplies that doctors and hospitals use today 
to combat the virus are not manufactured in the United States.
    Because many of our medical supplies and pharmaceuticals are not 
produced domestically, we are competing with the rest of the world for 
the supplies we need to treat our people. Countries like China have a 
stranglehold on our medical supply chain, and we must take steps to 
regain control of the supply chain from the communist regime. This is 
especially important during a global pandemic.
    To make matters worse, there is evidence that China deliberately 
misled the world about the extent of the outbreak in that country while 
hoarding critical medical supplies and decreasing exports to the rest 
of the world. Had we known the true number of individuals infected in 
China, we would have quickly realized that our stockpile of 
ventilators, N95 respirators, and other medical supplies were not going 
to be enough to meet the demand and acted earlier to meet the projected 
need.
    While we may have lost critical time at the beginning of this 
pandemic, once we began to understand the potential scope of the 
outbreak in this country, the administration took steps to increase the 
availability of necessary supplies.
    FEMA was put in charge of distribution of medical supplies rather 
than HHS because of its logistical capabilities and relationship with 
State and local emergency managers. FEMA established Project Airbridge 
to find medical supplies and quickly get them to where they were 
needed.
    The President used the Defense Production Act to encourage U.S. 
companies to join the fight against COVID-19 by altering their 
operations to provide for critical medical supplies. Ford, GE, and 
General Motors stepped up to assist with manufacturing ventilators.
    3M doubled its production of N95 masks to 100 million a month. 
Bauer, a U.S. company that makes hockey equipment, stopped making 
helmet visors and started producing face shields for medical 
professionals. As wearing a cloth face covering became a way of life 
for millions of Americans, My Pillow began producing masks to meet the 
demands of American's need.
    After it became apparent that hand sanitizer was in short supply, 
many distillers, like Whitmeyer's in my district in Houston, converted 
from making alcohol for consumption to producing hand sanitizer.
    American companies are not just meeting PPE and medical equipment 
demand, but looking forward. In a month-and-a-half Houston's Medistar 
founder Monzer Hourani took his idea for a filter that can kill COVID 
from an idea to a prototype to a tested and proven concept that kills 
99.8 percent of the virus.
    These are just a few examples of U.S. companies stepping up to 
support our country during this crisis. Many other companies have 
donated portions of their profits to aid in the fight against COVID.
    As we continue to learn more about this virus and the best ways to 
prevent its spread, we must continue to build our stockpile of medical 
supplies and ensure that our health care providers and first responders 
have the tools they need. I look forward to hearing from our witnesses 
today on the best ways to do that.
    I yield back.

    Ms. Torres Small. Thank you, Ranking Member Crenshaw.
    I now recognize the Chairman of the Subcommittee on 
Emergency Preparedness, Response, and Recovery, the gentleman 
from New Jersey, Mr. Payne, for an opening statement.
    Mr. Payne. Thank you, Madam Chair. It is an honor and 
privilege to be with you and my colleagues here today.
    First, I would like to say I hope everyone and their loved 
ones are staying safe and healthy, and my condolences to those 
who have lost loved ones because of the coronavirus.
    I would like to thank Chairwoman Torres Small and Ranking 
Member Crenshaw of the Oversight, Management, and 
Accountability Subcommittee for coming together with Ranking 
Member King and I to hold this hearing.
    I would also like to thank the witnesses for being here 
today to discuss the pandemic and the challenges with supplies 
and procurement, a topic that is so incredibly important for 
our country at this moment.
    For too many communities, the pandemic is continuing to get 
worse. The magnitude of this pandemic is devastating.
    It didn't have to be this way, but there was a clear lack 
of leadership, most importantly at the White House itself. The 
lack of leadership extended to the Federal Government's 
procurement strategy, and those effects have been felt by 
States, local governments, and front-line workers who are 
trying to contain COVID-19 around the country without the 
proper PPE or supplies.
    Instead of taking proactive steps early on to invoke the 
Defense Production Act, build up our supply reserves, and 
initiating a whole-of-Government procurement strategy and 
quickly getting testing supplies and other vital medical 
equipment out into communities, President Trump was instead 
downplaying the threat of this virus and telling the American 
people that it was under control and was a problem that was 
going away.
    I hope that it is clear now, with more than 3 million cases 
and well over 130,000 deaths Nation-wide and daily cases on the 
rise, that the virus was not and is still not under control.
    During the pandemic, States have been left to fend for 
themselves while dealing with a market that was oversubscribed 
and underregulated. This led to chaos on the front lines with 
our health care workers having to reuse masks or use trash bags 
as gowns in an effort to try to protect themselves.
    Efforts by the Federal Government to address supply 
shortages have also been marred with problems. These problems, 
including lack of coordination, have plagued the entire Federal 
response. The initial response was disorganized and wasted 
valuable time that could have been used better to prepare for 
what was to come.
    These problems continue today:
    Rear Admiral Polowczyk, head of the Supply Chain 
Stabilization Task Force, recently testified that the Federal 
Government still does not have information on the State 
stockpiles of PPE or other supplies.
    Or, Project Airbridge, which has now been retired, but 
where reports have stated that many States and cities were not 
aware whether supplies brought into the country through the 
Project Airbridge initiative were coming into their 
jurisdictions.
    Further, some shipments of PPE that FEMA coordinated to 
nursing homes around the country were reportedly defective and 
inefficient supplies.
    Finally, Federal Government contracts for supplies were not 
vetted properly before being awarded. This includes a $10 
million contract to Fillakit for testing supplies that the 
agency then had to tell States not to use because the supplies 
were produced in unsanitary conditions.
    Given FEMA's history of procurement failures, Congress must 
conduct rigorous oversight to ensure past problems are fixed 
going forward. Neglecting to correct these mistakes will result 
in unnecessary lives lost, an outcome that we all want to 
avoid.
    Getting it right as soon as possible is especially 
important as there are growing reports of PPE shortages once 
again as States see a steep increase in new cases.
    To explore these topics, I am glad that we have such an 
esteemed panel of experts here to help shed light on how we can 
do better in procuring and distributing supplies.
    Thank you very much, and I yield back.
    [The statement of Chairman Payne follows:]
               Statement of Chairman Donald M. Payne, Jr.
                             July 14, 2020
    For too many communities, the pandemic is continuing to get worse. 
The magnitude of this pandemic is devastating. It didn't have to be 
this way, but there was a clear lack of leadership, most importantly at 
the White House itself. This lack of leadership extended to the Federal 
Government's procurement strategy, and those effects have been felt by 
States, local governments, and front-line workers who are trying to 
contain COVID-19 around the country without the proper PPE or supplies.
    Instead of taking proactive steps early on to invoke the Defense 
Production Act, build up our supply reserves, initiating a whole-of-
Government procurement strategy, and quickly getting testing supplies 
and other vital medical equipment out into communities, President Trump 
was instead downplaying the threat of the virus and telling the 
American people that it was ``under control'' and was a ``problem 
that's going to go away.''
    I hope that it is clear now, with more than 3 million cases and 
well over 130,000 deaths Nation-wide, and daily cases on the rise, the 
virus was not, and is still not, under control. During the pandemic, 
States have been left to fend for themselves while dealing with a 
market that was oversubscribed and underregulated. This led to chaos on 
the front lines with our health care workers having to reuse masks or 
use trash bags as gowns in an effort to try and protect themselves.
    Efforts by the Federal Government to address supply shortages have 
also been marred by problems. These problems, including lack of 
coordination, have plagued the entire Federal response. The initial 
response was disorganized and wasted valuable time that could have been 
used to better prepare for what was to come. These problems continue 
today:
    Rear Admiral Polowczyk, head of the Supply Chain Stabilization Task 
        Force, recently testified that the Federal Government still 
        does not have information on the State stockpiles of PPE and 
        other supplies.
    Or, Project Airbridge, which has now been retired, but where 
        reports have stated that many additionally, States and cities 
        were not aware whether supplies brought into the country 
        through the Project Airbridge initiative were coming into their 
        jurisdictions.
    Further, the shipments of PPE that FEMA coordinated to nursing 
        homes around the country were defective or an insufficient 
        supply.
    Finally, Federal Government contracts for supplies were not vetted 
        properly before being awarded. This includes a $10 million 
        contract to Fillakit for testing supplies that the agency then 
        had to tell States not to use because the supplies were 
        produced in unsanitary conditions.
    Given FEMA's history of procurement failures, Congress must conduct 
rigorous oversight to ensure past problems are fixed going forward. 
Neglecting to correct these mistakes will result in unnecessary lives 
lost--an outcome we all want to avoid. Getting it right as soon as 
possible is especially important as there are growing reports of PPE 
shortages once again as States see a steep increase in new cases.
    To help explore these topics, I'm glad that we have such an 
esteemed panel of experts here to help shed light on how we can do 
better in procuring and distributing supplies.

    Ms. Torres Small. Thank you, Chairman Payne.
    The Chair now recognizes the Chairman of the full 
committee, the gentleman from Mississippi, Mr. Thompson, for an 
opening statement.
    Mr. Thompson. Thank you very much, Madam Chair.
    First of all, let me thank everyone for being here. Like 
Chairman Payne indicated, I hope all is well.
    Mr. Fugate, it is always good seeing you. You have been a 
stellar person all your public career.
    The COVID-19 pandemic has put our Nation in crisis. To 
date, the United States has reported over 3 million COVID-19 
cases and well over 130,000 people have died from complications 
associated with the virus. Even as States continue to set daily 
records for infections and new ``hotspots'' begin to emerge, 
the Nation's top medical experts and scientists are predicting 
a second wave of COVID-19 infections.
    Obtaining and distributing critical supplies and medical 
equipment has proven to be among the most important and 
challenging factors in responding to COVID-19.
    The American people are looking to the Federal Government 
for leadership and support as the Nation navigates these 
troubling times. The absence of leadership from the White House 
has resulted in the lack of a clear, coordinated Federal 
procurement strategy that has caused complications and delays 
in States getting essential equipment.
    For example, President Trump told Governors, ``The Federal 
Government is not supposed to be out there buying vast amounts 
of items and then shipping; you know, we are not a shipping 
clerk,'' causing panic and chaos in the procurement process and 
reducing States' ability to acquire what they need.
    In addition, States have to compete not only with each 
other for these critical supplies, but also with the rest of 
the world, significantly driving up prices.
    When FEMA took a larger role in the Federal response 6 
weeks after the pandemic started, its main responsibility was 
to improve the Nation's access to these critical supplies 
through initiatives like the Supply Chain Stabilization Task 
Force and Project Airbridge; however, it was unrealistic to 
expect FEMA to come in and manage a full-blown crisis while 
planning for and responding to natural disasters and to do it 
with a contracting work force that had been understaffed and 
overworked in recent years.
    FEMA's initiatives caused confusion. States reported issues 
with communication surrounding equipment availability and 
delivery time frames. Just last week, Governor Pritzker of 
Illinois called Project Airbridge an utter and complete failure 
in testimony before this committee.
    That assessment is unsurprising given the accounts of non-
Federal volunteers, led by Jared Kushner, being embedded at 
FEMA to work on Project Airbridge. Jared Kushner's actions 
further contributed to confusion over who was in charge.
    While the committee has repeatedly requested more 
information on Project Airbridge, FEMA has yet to provide the 
requested documents and information needed for us to do our 
oversight work.
    Though FEMA was the administration's choice for this 
mission because of its experience in disaster contracting and 
logistics, it has had a history of disaster contracting 
challenges.
    Infamous contracting fiascoes like the award made to Bronze 
Star and Tribute during the 2017 hurricane season demonstrate 
FEMA's difficulty getting its procurement responsibilities 
right during the height of disasters.
    FEMA still struggles in this area with the agency having to 
cancel a $55 million contract with Panthera in May for the 
company's failure to deliver any of the N95 masks that the 
company promised.
    The company had no prior experience obtaining medical 
supplies or equipment and its parent company was bankrupt. 
Panthera, which is the company, should never have been awarded 
a contract in the first place.
    As COVID-19 cases continue to rise in States across the 
country, we must learn from our mistakes and adapt the Federal 
response to better meet the needs of our communities and front-
line workers.
    There is still time to get FEMA on track with its 
procurement processes in hopes that the Nation's preparedness 
posture will be much improved as we continue to battle the 
growing first wave of COVID-19 and prepare for a possible 
second wave in the fall.
    I am grateful to the witnesses for taking the time to be 
here today to contribute to this important discussion.
    With that, Madam Chair, I yield back the balance of my 
time.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             July 14, 2020
    The COVID-19 pandemic has put our Nation in crisis. To date, the 
United States has reported over 3 million COVID-19 cases and well over 
130,000 people have died from complications associated with the virus. 
Even as States continue to set daily records for infections and new 
``hotspots'' begin to emerge, the Nation's top medical experts and 
scientists are predicting a second wave of COVID-19 infections.
    Obtaining and distributing critical supplies and medical equipment 
has proven to be among the most important and challenging factors in 
responding to COVID-19. The American people are looking to the Federal 
Government for leadership and support as the Nation navigates these 
troubling times.
    The absence of leadership from the White House has resulted in the 
lack of a clear, coordinated Federal procurement strategy that has 
caused complications and delays in States getting essential equipment. 
For example, President Trump told Governors ``[t]he Federal Government 
is not supposed to be out there buying vast amounts of items and then 
shipping. You know, we're not a shipping clerk,'' causing panic and 
chaos in the procurement process and reducing States' ability to 
acquire what they need. In addition, States having to compete not only 
with each other for these critical supplies, but also with the rest of 
the world, significantly drove up prices.
    When FEMA took a larger role in the Federal response 6 weeks into 
the pandemic, its main responsibility was to improve the Nation's 
access to these critical supplies through initiatives like the Supply 
Chain Stabilization Task Force and Project Airbridge. However, it was 
unrealistic to expect FEMA to come in and manage a full-blown crisis 
while planning for and responding to natural disasters, and to do it 
with a contracting workforce that has been understaffed and overworked 
in recent years.
    FEMA's initiatives caused confusion. States reported issues with 
communication surrounding equipment availability and delivery time 
frames. Just last week, Governor Pritzker of Illinois called Project 
Airbridge an ``utter and complete failure'' in testimony before this 
committee. That assessment is unsurprising given the accounts of non-
Federal volunteers, led by Jared Kushner, being embedded at FEMA to 
work on Project Airbridge. Jared Kushner's actions further contributed 
to confusion over who was in charge.
    While the committee has repeatedly requested more information on 
Project Airbridge, FEMA has yet to provide the requested documents and 
information needed for us to do our oversight work. Though FEMA was the 
administration's choice for this mission because of its experience in 
disaster contracting and logistics, it has had a history of disaster 
contracting challenges. Infamous contracting fiascos like the awards 
made to Bronze Star and Tribute during the 2017 hurricane season 
demonstrate FEMA's difficulty getting its procurement responsibilities 
right during the height of disasters.
    FEMA still struggles in this area, with the agency having to cancel 
a $55 million contract with Panthera in May for its failure to deliver 
any of the N95 masks that the company promised. The company had no 
prior experience obtaining medical supplies or equipment and its parent 
company was bankrupt--Panthera should never have been awarded a 
contract in the first place.
    As COVID-19 cases continue to rise in States across the country, we 
must learn from our mistakes and adapt the Federal response to better 
meet the needs of our communities and front-line workers.
    There is still time to get FEMA on track with its procurement 
processes in hopes that the Nation's preparedness posture will be much 
improved as we continue to battle the growing first wave of COVID-19 
and prepare for a possible second wave in the fall.

    Ms. Torres Small. Thank you, Chairman Thompson.
    Other Members of the committee are reminded that under the 
committee rules, opening statements may be submitted for the 
record. Members are also reminded that the subcommittees will 
operate according to the guidelines laid out by the Chairman 
and Ranking Member in their July 8 colloquy.
    I now welcome our panel of witnesses and thank them for 
joining today.
    Our first witness is Mr. Craig Fugate, who served as the 
FEMA administrator throughout the entirety of the Obama 
administration. During his tenure, he led the agency for more 
than 500 Presidentially-declared major disasters and 
emergencies.
    Prior to leading FEMA, Mr. Fugate headed the Florida 
Division of Emergency Management, where he led the State 
through many years of intense disasters and hurricanes, and 
before that he worked in emergency management at the local 
level in Florida.
    Our second witness, Mr. Mark Ghilarducci, serves as the 
director of the Governor's Office of Emergency Services for the 
State of California. He was first appointed to the position in 
July 2013 by Governor Brown and was reappointed by Governor 
Newsom in January 2019.
    Director Ghilarducci, serves as the Governor's Homeland 
Security Advisor and oversees State-wide public safety, 
emergency management, emergency communications, and 
counterterrorism. He has more than 30 years of experience in 
public safety and government management at the local, State, 
and Federal levels.
    Our final witness, Mr. Chris Currie, is director on the 
Homeland Security and Justice team at the Government 
Accountability Office. He leads the agency's work on National 
preparedness, emergency management, and critical infrastructure 
protection issues.
    Mr. Currie has been with GAO since 2002 and has been the 
recipient of numerous agency awards, including the Meritorious 
Service Award in 2008.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize his statement for 5 
minutes, beginning with Mr. Fugate.

    STATEMENT OF W. CRAIG FUGATE, SENIOR ADVISOR, BLUE DOT 
    STRATEGIES, AND FORMER ADMINISTRATOR, FEDERAL EMERGENCY 
                       MANAGEMENT AGENCY

    Mr. Fugate. Thank you, Madam Chair, Chairs, and Ranking 
Members of the committee.
    We can spend a lot of time talking about what goes wrong in 
these types of responses. I want to introduce some ideas that 
may be able to minimize these impacts later. It goes back to, 
in your opening statement, several key issues we have had.
    FEMA was brought in late. A lot of this has to do with that 
FEMA is too often only seen as the agency that responds to 
Stage 4 natural hazards, even though the Homeland Security Act, 
as amended, or also known as the Post-Katrina Emergency 
Management Reform Act, essentially gives the President the 
authority to use FEMA in any crisis, not just when there is a 
Stafford Act declaration.
    I think this is something that needs to be reinforced. If 
we are going to utilize FEMA as a crisis agency, that role 
needs to be further strengthened and defined so that it is not 
that FEMA takes over.
    In fact, I was a little bit disconcerted when they put FEMA 
in charge of this response. I still felt that CDC and Health 
and Human Services should have been the lead with FEMA 
supporting them, just like we supported USAID in the response 
to the Haiti earthquake and we supported Customs and Border and 
Health and Human Services family services during the 
unaccompanied children on the border and as we supported CDC in 
the Ebola crisis.
    FEMA is not just about hurricanes, wildfires, or 
earthquakes. They are an all-hazard agency. But I think that 
strengthening that as the Nation's crisis manager would further 
streamline the Federal response to future crises.
    It isn't that FEMA takes over, but FEMA helps many agencies 
who do not do crisis response full time, as you point out, do 
not have the relationships with the State emergency management 
teams, like Director Ghilarducci, and often find themselves 
struggling in those first days and first weeks to begin that 
response.
    The second part of this is the Stafford Act. Too often I 
think FEMA is defined by what you can declare under the 
Stafford Act, and under the Stafford Act, for a major 
Presidential declaration, Congress has enumerated what would be 
considered a disaster.
    Pandemics are absent. So are cyber attacks. In many cases 
certain terrorist attacks, unless they involve an explosion or 
fire, could conceivably be excluded.
    I think by amending the Stafford Act, adding pandemics, 
cyber attacks, and other events to that so we are no longer 
uncertain about FEMA's role, we could have turned on much of 
the individual systems [inaudible] dealing with how to provide 
everything from disaster employment, food stamps, crisis 
counseling, legal assistance, all things that could have been 
turned on in that disaster.
    The third area that I think we need to address goes back to 
this whole supply chain. I like to say that efficiency is the 
enemy of resiliency. What you are seeing in this pandemic in a 
just-in-time global delivery system has produced very efficient 
low-cost supplies, particularly in the health care industry.
    But what we are seeing in this pandemic is only the tip of 
what could happen to other industries where we have critical 
infrastructures for communications, power systems, water 
supplies, treatment systems across the whole vast definitions 
of what Homeland Security has defined as critical industries 
that are dependent upon international global supply chains. 
That has increased our vulnerability through competition, but 
also lack of ready access.
    I think we need to look at increasing the capabilities of 
domestic production. This will not be based upon a business 
model that says we get the best value. It is about creating 
inefficiencies to build resilience, either through tax credits 
or purchasing power.
    But if you wait until a crisis occurs and then discover 
that your supply chain that you need for critical 
infrastructure or supplies is located on the other part of the 
world and now there are disruptions, either intentional, or 
competition, or the fact that disasters can occur elsewhere and 
disrupt our supply chains, we are seeing with the pandemic how 
loss of domestic capability and production is actually 
impacting our ability to respond.
    So I think--I don't know, you know, again, as we look at 
this, just like our defense industry, we don't outsource 
building our submarines. Why are we outsourcing those supplies 
that are critical to key infrastructures that we need to have 
up and running?
    I think, again, Congress can, in many cases, influence that 
through the ability of tax credits, the ability of purchasing 
power, and [inaudible] relationships.
    This gets to, I think, part of the matter about FEMA 
[inaudible] after this. When you tell FEMA to go find whatever 
you can find for PPE, you get the results we got.
    Thank you, Madam Chair.
    [The prepared statement of Mr. Fugate follows:]
                 Prepared Statement of W. Craig Fugate
                             July 14, 2020
    Chairs Small and Payne, Ranking Members Crenshaw and King, and 
Members of the committees, thank you for inviting me to testify today 
about ``Reviewing Federal and State Pandemic Supply Preparedness and 
Response.''
    While others will focus on the current response, I want to focus on 
what we can do differently before the next pandemic or other National-
level disaster.
    Establish FEMA as the Federal Government's Crisis Manager and 
providing funding from the Disaster Relief Fund to support FEMA 
response to non-Stafford Act Disasters.
    Background.--While FEMA is most noted for the coordination of 
        Federal disaster response under a Stafford Act Declaration by 
        the President, other events such as COVID-19 show the need to 
        utilize the crisis management tools that FEMA brings to a 
        response. From supporting USAID in the response to the Haiti 
        Earthquake, CDC during the Ebola crisis, or managing the 
        unaccompanied children crisis on the boarder, FEMA has brought 
        needed capabilities. These responses were managed under the 
        authorities of the Post-Katrina Emergency Management Reform Act 
        of 2006--Title I: National Preparedness and Response--(Sec. 
        101). Amends the Homeland Security Act of 2002 (the Act) to 
        make extensive revisions to emergency response provisions while 
        keeping the Federal Emergency Management Agency (FEMA) within 
        the Department of Homeland Security (DHS). Sets forth 
        provisions regarding FEMA's mission, which shall include: (1) 
        Leading the Nation's efforts to prepare for, respond to, 
        recover from, and mitigate the risks of, any natural and man-
        made disaster, including catastrophic incidents; (2) 
        implementing a risk-based, all-hazards-plus strategy for 
        preparedness; and (3) promoting and planning for the 
        protection, security, resiliency, and post-disaster restoration 
        of critical infrastructure and key resources, including cyber 
        and communications assets.
    Amend the Stafford Act to add Pandemic to the definitions for a 
Major Disaster.
    Background.--CRS Report for Congress: Would an Influenza Pandemic 
        Qualify as a Major Disaster Under the Stafford Act? October 20, 
        2008 Edward C. Liu, Legislative Attorney, American Law 
        Division.
    Establish a standing Disaster Review Body like the National 
Transportation Safety Board to review the response to COVID-19 and 
other major disasters.
    Background.--https://www.healthaffairs.org/do/10.1377/
        hblog20180720.1685- 27/full/.
    Review all critical National infrastructures for supply chain 
dependencies outside of the United States and determine whether to 
provide incentives to increase reserves and domestic manufacturing 
capabilities.
    Background.--Efficiency is the enemy of resiliency. Just-in-time 
        delivery systems and outsourced global supply chains has 
        reduced the cost of many goods and services required for our 
        Nation's infrastructure. However, that has also created 
        vulnerabilities in global crises and disruptions to the supply 
        chains. I would focus on the DHS's definitions of Critical 
        Infrastructure Sectors. https://www.cisa.gov/critical-
        infrastructure-sectors.

    Ms. Torres Small. I now recognize Mr. Ghilarducci to 
summarize his statement for 5 minutes.

 STATEMENT OF MARK GHILARDUCCI, DIRECTOR, OFFICE OF EMERGENCY 
            SERVICES, GOVERNOR'S OFFICE, CALIFORNIA

    Mr. Ghilarducci. Well, good morning, Chairman Payne, 
Chairwoman Torres Small, Ranking Members King and Crenshaw, and 
Members of the subcommittee. Thank you for inviting me to 
testify on the Federal Government's personal protective 
equipment procurement and distribution.
    I also discuss the State of California's response to the 
COVID-19 global pandemic, particularly the State's strategy for 
emergency procurement and distribution of life-saving PPE, 
which has been the largest disaster logistics and commodity 
distribution operation in the history of the State of 
California.
    On behalf of the State of California, I want to begin by 
extending my sincere gratitude to all of the Federal agencies 
who have provided coordination, assistance, and funding in 
helping California respond to the COVID-19 pandemic.
    Along with most of the Nation and the world, California has 
been severely impacted by the COVID-19 pandemic. As of July 13, 
the State has 336,508 cases and has tragically lost 7,087 lives 
to the disease.
    However, California began dealing with indirect effects of 
this pandemic long before any other State, in January, when the 
State coordinated and accepted flights of repatriated citizens 
from China.
    Shortly after, California coordinated with the U.S. 
Department of Health and Human Services in an unprecedented 
operation to safely disembark and quarantine all passengers on 
the Grand Princess cruise ship.
    In January 2020, as the COVID caused the entire city of 
Wuhan in the Hubei Province in China to quarantine, California 
rose to meet the need when the State Department began 
repatriation flights to bring American citizens home. Cal OES 
activated the State Operations Center and worked with the State 
Department, Department of Defense, Department of Homeland 
Security, Department of Health and Human Services, and other 
Federal agencies and State agencies to assist in the 
coordination of these missions.
    On February 1, there were 6 confirmed positive COVID-19 
cases in California. By late February, the State had enhanced 
its capabilities dedicated to COVID response after the first 
case of community transmission in the State.
    By March 4, the Governor declared a state of emergency in 
anticipation of increasing rates of the COVID-19 infection. At 
that time, resource requests for PPE were accelerating, 
prompting the State Operations Center to begin distributing the 
21 million N95 masks and 1 million surgical masks we had in our 
reserves.
    On March 6, Cal OES received notification from the U.S. 
Department of Health and Human Services that the Grand Princess 
cruise ship was heading to California from Hawaii. The Grand 
Princess, which normally ported in San Francisco, initially 
went to Mexico before coming back to California to offload and 
pick up passengers. It then set sail to Hawaii.
    There were an unknown number of sick people on the ship. 
California supported the CDC, Health and Human Services, and 
ASPR with several high-profile missions to the Grand Princess 
while still at sea, including transporting medical staff and 
necessary PPE, testing of staff and passengers, delivery of 
essential medications to passengers, and several evacuations of 
sick individuals.
    This was a major operation that demanded California provide 
incident management support and large quantities of logistical 
support to Health and Human Services, the lead Federal agency, 
including medical personnel and PPE.
    At this time our partners at FEMA Region IX were very 
responsive and provided as much assistance as possible given 
they were not yet the lead Federal agency. Following an 
extensive effort involving multiple levels of government, the 
State developed a plan with the ship to berth at the Port of 
Oakland. The first passengers disembarked on March 9 and the 
last passengers disembarked on March 16 in a meticulous process 
to protect the health of everyone involved.
    Passengers, including Californians, other U.S. citizens, 
and foreign nationals, were transported to and quarantined at 
Travis Air Force Base, Marine Corps Air Station Miramar, and 
other alternate care sites established by the State to ensure 
that no COVID-19 spread in the community before they returned 
home.
    During the repatriation in the Grand Princess operation it 
quickly became clear that Health and Human Services had trouble 
with maintaining the tactical scope and scale to respond to the 
issues that arose during these missions. All deployed staff 
from Health and Human Services had specific purposes and were 
inflexible or unable to respond to evolving needs in the State 
in a timely way for challenges we were addressing.
    Recently we have heard that the Federal Government has 
considered placing HHS back in the lead coordination role for 
this pandemic. This is concerning as we believe it would 
unnecessarily slow down and complicate the National response 
that is under way.
    FEMA's infrastructure and experience leading operations 
across the entire Federal family and assisting States has 
actually been incredibly valuable and should be continued.
    Overall, the most significant challenge of the Federal 
Government's response to the pandemic has been the lack of a 
coordinated, centralized approach to secure, obtain, and 
distribute PPE.
    The Federal Government's response to the on-going PPE 
crisis should be characterized as challenging or really 
unsuccessful. In a global pandemic, with world-wide competition 
for critical life-saving assets, a National strategy to 
leverage Federal buying power and consolidate asset acquisition 
and distribution was nonexistent.
    In fact, every State----
    Ms. Torres Small. Mr. Ghilarducci, I apologize. Your time 
has expired. If you can just summarize the rest of your 
comments.
    Mr. Ghilarducci. So the bottom line is that overall the 
efforts of obtaining and coordinating on a National scale, 
since we are talking about PPE and the need to get it in a 
timely fashion, setting up a competition where States were 
competing with each other and States were competing with the 
Federal Government for limited commodities that were absolutely 
necessary for life saving is not a position that we should be 
in as a State or as a country.
    This is problematic. Supply chains and having a capacity to 
have domestic supplies enhances domestic supplies. When you 
don't have those capabilities, implementing the Defense 
Production Act in a real way to be able to adequately and 
rapidly provide PPE is critical. In this case that did not 
happen.
    [The prepared statement of Mr. Ghilarducci follows:]
                 Prepared Statement of Mark Ghilarducci
                         Tuesday, July 14, 2020
    Chairman Payne, Chairwoman Torres Small, Ranking Members King and 
Crenshaw, and Members of the subcommittees, thank you for inviting me 
to testify on the Federal Government's personal protective equipment 
(PPE) procurement and distribution during the COVID-19 pandemic.
    Along with most of the Nation and the world, California has been 
severely impacted by the COVID-19 pandemic. As of July 11, the State 
has 312,344 cases and has tragically lost 6,945 lives to COVID-19. 
However, California began dealing with indirect effects of this 
pandemic long before any other State--since January, when the State 
coordinated and accepted flights of repatriated citizens from China.
                   repatriation flights to california
    In January 2020, as COVID-19 caused the entire city of Wuhan in the 
Hubei Province of China to quarantine, the State of California was 
notified by the U.S. State Department (DOS) of the need to activate the 
pre-established Repatriation Plan. California rose to meet the need 
when the DOS began repatriation flights to bring American citizens 
home. The California Governor's Office of Emergency Services (Cal OES) 
activated the State Operations Center (SOC) and worked with the DOS, 
Department of Defense, U.S. Department of Homeland Security, U.S. 
Department of Health and Human Services (HHS), and other Federal and 
State agencies to assist and coordinate these missions.
    Repatriation flights landed at March Air Reserve Base, Travis Air 
Force Base, and Marine Corps Air Station Miramar in late January and 
early February. California served as the gateway for thousands of 
Americans to return home safely. This required close coordination on 
the State's part with not only multiple Federal and State agencies and 
departments, but also local fire and law enforcement, public health, 
and emergency management to provide the necessary logistical needs, 
such as appropriate sheltering and medical support for the repatriated 
citizens who were placed under quarantine upon arrival. As well, the 
Federal Government issued travel advisories for China, which resulted 
in tens of thousands of travelers immediately passing through or 
traveling to San Francisco, Los Angeles, and San Diego airports.
    On February 1, there were 6 confirmed positive COVID-19 cases in 
California. Throughout the month of February, the California Department 
of Public Health, in conjunction with the California Health and Human 
Services Agency, continued to monitor cases and work with local public 
health departments on contact tracing in the State. In late February, 
the State enhanced its capabilities dedicated to COVID-19 response 
after the first case of community transmission in the State.
    On March 4, the Governor declared a State of Emergency to build on 
the work already under way by the State and engage all levels of 
government in anticipation of higher rates of COVID-19 infection. At 
that time, resource requests for PPE were accelerating, prompting the 
SOC to begin distributing the 21 million N95 masks and 1 million 
surgical masks from its reserves.
                        grand princess response
    On March 6, Cal OES received notification from HHS that the Grand 
Princess cruise ship was heading to California from Hawaii. The Grand 
Princess, normally ported in San Francisco, initially went to Mexico 
before coming back to California to offload and pick up passengers. It 
then set sail to Hawaii. There were an unknown number of sick people on 
the ship. California supported the Centers for Disease Control and 
Prevention (CDC) and the HHS Office of Assistant Secretary of 
Preparedness and Response (ASPR) with several high-profile missions to 
the Grand Princess while still at sea. This included transporting 
medical staff and necessary PPE, testing of staff and passengers, 
delivery of essential medications for passengers, and several 
evacuations of sick individuals.
    This was a major operation that demanded California provide large 
quantities of logistical support to HHS, the lead Federal agency, 
including medical personnel and PPE. At this time, our partners at the 
Federal Emergency Management Agency (FEMA) Region IX were very 
responsive and provided as much assistance as possible, given they were 
not the lead Federal agency.
    Following an extensive effort involving multiple levels of 
government, the State developed a plan for the ship to berth at the 
Port of Oakland. The plan ensured the passengers, 21 of which had 
tested positive for COVID-19, could disembark safely and receive 
medical treatment. With HHS as the lead, California provided support by 
establishing a dockside medical receiving and processing capability. 
The first passengers disembarked on March 9, and the last passengers 
disembarked on March 16, in a meticulous process to protect the health 
of everyone involved. Passengers, including Californians, other U.S. 
citizens, and foreign nationals, were transported to, and quarantined 
at, Travis Air Force Base, Marine Corps Air Station Miramar and at 
other alternate care sites established by the State to ensure there was 
no COVID-19 spread in the community before they returned home.
                coordination with the federal government
    In January, as discussed above, the lead Federal agency during the 
repatriation and Grand Princess mission was HHS. It quickly became 
clear that HHS had trouble with maintaining the tactical ability to 
respond to the issues that arose during those missions. All deployed 
staff from HHS had specific purposes and were inflexible and/or unable 
to respond to evolving needs of the State in the challenges we were 
addressing.
    Once the pandemic spread across the Nation, it was clear there was 
no strategic initiative or coordinated plan from HHS, the White House, 
or the CDC. Outside of the CDC, there was very little Federal guidance 
provided to the States. Regarding PPE, specifically, there was one 
brief mention of cost eligibility provided in a FEMA fact sheet on 
emergency protective measures. At the same time, our partners at FEMA 
Region IX, who had embedded at the SOC along with HHS, worked to 
adjudicate and provide critical technical assistance where possible, 
including those related to Federal resources, the State's procurement, 
and ultimately FEMA's distribution of PPE.
    On March 13, the President issued an Emergency Declaration, and on 
March 19, the Governor issued a State-wide stay-at-home order, 
requiring all non-essential activity to cease. On March 22, the 
Governor requested, and the President approved, a Major Disaster 
Declaration for California for Direct Federal Assistance, Emergency 
Protective Measures, and Public Assistance. This action initiated the 
switch in lead Federal agency from HHS to FEMA.
    Given the complexity of the situation and how late into the 
response they took over Federal responsibility, FEMA was both 
challenged and worked to be incredibly responsive. FEMA did the best 
they could to organize information and operations to assist our State. 
FEMA Region IX is still embedded in the SOC and has played a critical 
role in the State's Logistics and Commodity Movement Task Force and in 
communicating across the entire Federal family. Particularly, the FEMA 
Region IX administrator and liaison officers have been highly 
communicative and supportive, especially in moving the State's requests 
through the relevant Federal departments.
             federal resource procurement and distribution
Strategic National Stockpile
    The same week as the Major Disaster Declaration on March 22, 
following requests by the State to HHS for deployment of the Strategic 
National Stockpile (SNS), California received its initial allotment of 
PPE from the SNS. It quickly became apparent that the Federal 
Government had not effectively maintained the SNS. Although the State 
had planned on a complete and fully functional SNS, HHS provided the 
State with only a percentage of PPE necessary to keep health care 
workers and front-line workers safe. Notably, the SNS allocation to 
California was absent any ventilators to treat those affected most 
seriously by COVID-19. Of the SNS resources that were received, many of 
the N95 respirators were expired. In the end, California only received 
75 percent of the total SNS allocation that it had expected and planned 
for. The separate SNS allocation dedicated specifically to the county 
of Los Angeles included a small number of ventilators, and 
unfortunately, all of the ventilators were inoperable and required 
refurbishment by the State, delaying the deployment of these critical 
resources.
    California received only 75 percent of its allotment from the SNS, 
comprising:
  <bullet> N95 Masks.--20 million
  <bullet> Surgical Masks.--10 million
  <bullet> Face Shields.--600,000
  <bullet> Surgical Gowns.--600,000
  <bullet> Coveralls.--100,000
  <bullet> Gloves.--600,000
  <bullet> Goggles.--300,000.
Federal Testing Supply Distribution
    In addition to PPE, California has received the following monthly 
allocation of testing supplies from the Federal Government:

------------------------------------------------------------------------
                                          Swabs         Transport Media
------------------------------------------------------------------------
May...............................        1.2 million            900,000
June..............................        1.5 million            900,000
                                   -------------------------------------
      Total.......................        2.7 million        1.8 million
------------------------------------------------------------------------

    California has requested 1.2 million swabs and 1.2 million units of 
media for the month of July, and we expect to receive these amounts 
based on our communications with HHS. Additionally, HHS provides a 
weekly allocation of Abbot ID Now test kits to the State. Our initial 
allocation was 2,400 tests per week, although recently the amount has 
increased. On July 9, California received word that the Federal 
Government is providing us with an additional 50 Abbott ID Now devices 
and 15,000 tests to address current surge needs. This is a huge one-
time increase in rapid point-of-care testing for the State and will be 
immensely helpful.
    Like Federally-distributed PPE, however, testing supplies and 
processes have also had significant issues.--Initially, there was much 
confusion and discoordination with both distribution of testing 
supplies and the roll-out of the testing sites across the country. 
Although California was actively working to implement a State-wide 
testing process, HHS had an inflexible approach requiring the State to 
follow a ``one size fits all'' strategy, which was very problematic. 
Nevertheless, the State adjusted to meet HHS requirements. In the end, 
HHS changed course and allowed the State to implement their own system. 
This simply cost valuable time and much unnecessary strain.
    As well, early on, there were complexities with getting appropriate 
and sufficient testing supplies, to include swabs and media. The 
ability to get testing supplies in a timely fashion was inconsistent 
and on more than one occasion, the testing supplies provided were the 
wrong ones. Currently, about 760,000 units of the viral transport media 
manufactured by Fillakit are in quarantine in one of our State 
warehouses due to potential quality assurance issues. FEMA is aware of 
this issue and is working hard with the U.S. Food and Drug 
Administration (FDA) to resolve the problem.
    On July 8, to address a recent spike in positive cases throughout 
the State, California submitted additional requests for testing 
supplies to the Federal Government, including:
  <bullet> Roche Cobas 6,800/8,800 test reagents, to support 30,000 
        tests per day.
  <bullet> Roche extraction reagents for MP96, Compact, and LC 2.0, to 
        support 20,000 tests per day between the 3 machine types.
  <bullet> 50 Abbott ID Now machines to place in prisons/jails for 
        symptomatic testing and 15,000 cartridges per day to support 
        this testing prison/jail testing over the next 6 months and in 
        Imperial County's 2 hospitals.
  <bullet> 100 Cepheid GeneXpert machines to place in skilled nursing 
        facilities and in Imperial County's El Centro Hospital, and 
        480,000 cartridges to support skilled nursing facility testing 
        over the next 6 months.
  <bullet> Qiagen RNA extraction reagents, to support 15,000 tests per 
        day.
  <bullet> Additional 200 BD Max supplies boxes per week, to support 
        Imperial Public Health Lab.
  <bullet> Biomerieux EasyMAG RNA extraction kits, to support 30,000 
        reactions per week.
  <bullet> 29 Hologic Panther Fusions machines to place in 29 public 
        health labs, reagents to support 20,000 tests per day, and 
        Hologic TMA reagents to support 15,000 tests.
Federal Medical Personnel
    Obtaining consistent Federal medical resources has been challenging 
as well. This is more understandable, given the Nation-wide impact from 
the pandemic and the need for resources by all States. However, the 
lack of a strategic, coordinated approach to resource allocation has 
been problematic. As well, the reluctance to utilize or commit DOD 
assets and facilities for the long term has been a challenge. The 
inability to secure Federal resources for more than short durations 
results in a ``revolving door'' approach of assets, requiring the State 
to continually shop for resources during a pandemic that has exhausted 
resources. Beyond the request for Federal assets, California has 
actively pursued contracts with private medical providers and early on, 
launched a State-wide Health Corps initiative. Through the Health 
Corps, the State leverages available medical professionals and deploys 
them strategically to locations throughout the State.
    More recently, on July 6, California requested an additional 190 
professional medical staff from the Federal Government to deploy from 
July 15 to September 15. These personnel will assist California's 
efforts in Imperial County to address the on-going surge at the U.S.-
Mexico border, as well as intensive care unit (ICU) capability 
throughout the State. This request included:

----------------------------------------------------------------------------------------------------------------
                                       Mid-Level
                                   Providers (Nurse
   MD Intensivists-ICU and ER        Practioners/         Respiratory       ICU/ER Critical     Total Requested
                                      Physicians          Therapists           Care RNs              Staff
                                      Assistants)
----------------------------------------------------------------------------------------------------------------
30..............................  20................  20................  120...............  190.
----------------------------------------------------------------------------------------------------------------

    Again, FEMA has been very helpful and as of July 10, all 190 staff 
have been identified for this mission from the Department of Defense 
and from HHS, which will immensely assist the State.
Operation Airbridge
    To begin, the overall approach by the Federal Government to secure, 
obtain, and distribute PPE to States has been an on-going challenge and 
should be characterized as an overall failure. In a global pandemic 
with world-wide competition for critical life-saving assets, a National 
strategy to leverage Federal buying power and consolidate asset 
acquisition and distribution was nonexistent. In fact, every State was 
on their own. It became the wild-wild west, with little or no oversight 
or support by the Federal Government. The amount of fraud, 
misrepresentation and promises broken by suppliers and would-be 
profiteers was simply astounding. Every State was left to compete with 
each other, as well as with other countries, for the same commodities.
    As well, with Operation Airbridge, the States were left to compete 
with our own Federal Government. This approach was horrendous, 
resulting in massive costs and a lack of ability to secure the 
necessary PPE we needed for our health care workers. Although the 
Federal Government implemented a hybrid version of the Defense 
Production Act, it was not leveraged as designed and really had no 
positive effect on States.
    Operation Airbridge was a program in which the Federal Government 
partnered with several U.S.-based private medical suppliers to scour 
manufacturers in China to obtain as much PPE as possible. The Federal 
Government utilized its assets to find, procure, and transport PPE. It 
then allocated the PPE to private medical suppliers to provide to their 
customers, mostly hospitals, and retained some of the PPE to build into 
the SNS. As we understand it, roughly half of the obtained resources 
went to medical supply companies and 20 percent went to the medical 
supply companies to sell to others, with priority for hot spots in the 
country. The final 30 percent was allocated to FEMA for distribution 
via the SNS.
    As of July 3, California has received the following from the 
Federal Government through Operation Airbridge:
  <bullet> N95 Masks.--14,757,500
  <bullet> Surgical & Procedural Masks.--87,552,500
  <bullet> Eye/Face Shields.--2,792,400
  <bullet> Gowns & Coveralls.--34,612,300
  <bullet> Gloves.--2,164,685,500.
    While this effort did bring more resources into the United States, 
it compounded the difficulty that States were facing with securing PPE. 
In essence, this process ``cornered the market'' when the market 
already had limited availability. Any resources that were left or that 
could be obtained in the Asian market were almost entirely unavailable 
because of Operation Airbridge.
    Lack of communication from the Federal Government caused another 
issue with Operation Airbridge. We did not get notification of the 
program until it had been active already for weeks. Our FEMA liaisons 
were given very little information about the operation. Once 
information did start to flow, the State was only told which counties 
were prioritized but was not given a breakdown of which facilities had 
received which resources. At a time when the State was developing a 
strategy to distribute PPE procured through its own contracts, the lack 
of communication caused confusion and inefficiency in resource 
allocation.
    Operation Airbridge has been somewhat effective, but the supply 
chain has still not recovered. It helped fill gaps and confirm another 
commodity flow into the State, but with the consequence of driving 
market prices up, further increasing competition, and limiting the 
number of resources we could secure independently.
PPE Shipments to Skilled Nursing Facilities
    FEMA established a separate program specifically to distribute PPE 
to skilled nursing facilities. This effort, however, was not directly 
coordinated with the State. The State was notified of this program only 
after the PPE had been distributed and had little visibility over 
delivery dates, quantity, and locations. While this effort was well-
intentioned and critically needed, there have been complaints on the 
quality of some products, such as gowns that fit like ponchos or masks 
that were not usable.
Battelle Critical Care Decontamination Systems
    Through partnership with FEMA, the State-leveraged Battelle 
Critical Care Decontamination systems to decontaminate N95 respirators, 
allowing for their reuse during the supply chain shortage of this 
critical piece of PPE. The FDA issued an Emergency Use Authorization 
for the Battelle units, which can decontaminate one mask up to 20 times 
and can clean up to 80,000 masks per day.
    On April 20, the first Battelle site was established in Burbank. 
The second was established in Fremont on April 25. As of July 8, 
California's Battelle units have decontaminated 151,356 N95 respirators 
for 319 facilities, with 1,864 facilities signed up for the service.
         california's ppe procurement and distribution strategy
    Early on in the pandemic it became very clear to the State that 
given the volatile, competitive market fueled by scare resources, the 
limited availability of PPE, an unpredictable Chinese government, and 
an on-going tremendous need for PPE, continuation down the same path 
was unsuitable. We needed a more strategic approach. We leveraged the 
systems and concepts we have utilized in many previous disasters to 
develop a multi-prong strategy to build a more manageable, reliable, 
and sustainable pipeline to meet the needs now, and for the duration of 
the event, as well as prepare for needs to re-open the economy. As we 
have seen across the country, some industries need to utilize PPE that 
have never been required to use it before, in order to mitigate any 
potential for COVID-19 infection. We set a path to build a sustainable, 
reliable capability that we could move us from a defensive position to 
an offensive one.
    The State's PPE strategy is aligned with the Governor's 6 
indicators and 4 stages of reopening. It is informed by resource 
requests received by relevant industry sectors' prior efforts to secure 
PPE, existing burn rates of PPE, and immediate needs to support 
operations.
    Detailed further below, California's PPE strategy includes:
  <bullet> Contracts;
  <bullet> Contributions website and Safely Making CA;
  <bullet> State PPE distribution and guidance; and
  <bullet> Leveraged procurement agreements for sectors to purchase 
        their own PPE.
State Contracts
    The challenge of obtaining PPE during the world-wide supply chain 
shortage was worsened by fraudulent and dishonest vendors, overstated 
capabilities, and individuals and companies using the ``seller's 
market'' to take advantage of the global pandemic. There were cases 
where States were successful in getting PPE orders filled only for the 
shipments to be diverted, or the orders suspended, by the Federal 
Government. California lost shipments of swabs and face shields to this 
situation and saw diversions of 3 million N95 respirators. The State 
also lost several orders of N95 respirators due to the Chinese 
government shutting down PPE manufacturers and halting commodities 
shipments out of the country following market volatility and criticism 
against China.
    Central to the State's PPE procurement strategy has been its 
contract with the California-based BYD Motors, which has significant 
manufacturing capabilities in China. Critical to this effort was the 
assistance California received from FEMA, the FDA, and the National 
Institute for Occupational Safety and Health (NIOSH) in moving through 
the certification process for the masks produced by BYD. Since 
receiving NIOSH certification, this contract allowed California to 
provide tens of millions of surgical masks and N95 respirators. 
California also added to its PPE pipeline by entering into agreements 
with numerous other State-based companies, who ``re-tooled'' production 
lines to provide assets, including:
  <bullet> Bloom Energy in San Jose to repair and refurbish 
        ventilators;
  <bullet> Anheuser Bush in Los Angeles to produce hand sanitizer;
  <bullet> St. Johns Knits in Los Angeles to manufacture gowns and face 
        coverings;
  <bullet> Oakley in Orange County to produce face shields;
  <bullet> Virgin Orbit Rocket in Long Beach to produce ventilators;
  <bullet> Ustrive Manufacturing in Los Angeles to produce cloth face 
        masks and reusable gowns;
  <bullet> Biotix in San Diego to produce face shields;
  <bullet> Advoque in Santa Clara to produce N95 masks, and
  <bullet> Daniels Woodland in Paso Robles to produce gowns.
Contract Vetting and Price Gouging Prevention
    The State rapidly incorporated procedures and on-going checks and 
balances in partnership with local, State, and Federal law enforcement, 
including the Federal Bureau of Investigation, the U.S. Attorney's 
Office, and the U.S. Department of Homeland Security. The purpose of 
this enhanced vetting process was to help the State avoid nefarious 
actors and fraudulent orders.
    The Governor took an additional step to combat price gouging by 
issuing Executive Order N-44-20 on April 3, prohibiting a company from 
raising the selling price of any consumer good by more than 10 percent 
above the regular selling price of that item on February 4, 2020. 
Products on which suppliers had increased the cost were excepted.
Contributions Website and Safely Making CA Portal
    On March 18, the State launched a COVID-19 website to serve as a 
one-stop shop for information on COVID-19 State and Federal resources. 
A key component of this website was the Medical Supply Contributions 
portal, established on April 4 to facilitate the donation and 
distribution of PPE and other supplies from vendors and individuals.
    The vetting process for this includes filtering a donation or 
request through a Contributions Group to determine whether the vendor 
has provided enough information, a Validation Group to ensure the 
resource will meet State specifications, and finally a Procurement 
Group to either pursue or disqualify the request.
    To connect California businesses seeking PPE directly with 
California businesses selling PPE, the administration worked with the 
California Manufacturing Technology Association to establish the 
website Safely Making CA. This website fills a critical gap in helping 
businesses obtain non-medical grade PPE to assist in the reopening of 
the State. The portal also offers free licenses for cloud-based 
collaboration software so manufacturers can upload designs and 
specifications to the portal.
State PPE Distribution and Guidance
    As part of California's distribution strategy, the SOC implemented 
a Standard Operating Procedure (SOP) for Non-Healthcare Sector and 
State Agency PPE Requests, which outlines the request submission 
protocol and the adjudication and prioritization process for PPE 
allocation to non-health care sectors and State agencies. Per the SOP, 
the SOC evaluates unmet needs through coordination with State agencies, 
who solicit feedback from industry stakeholders.
    The PPE distribution process is also informed by the California 
Division of Occupational Safety and Health and the California 
Department of Public Health, which have been key in developing 
reopening and worker safety guidance documents spanning numerous 
industries in California.
    To ensure compliance with Federal and State laws, recipients of PPE 
are required to maintain documentation and ensure no duplication of 
funds. As of July 8, California has distributed:
  <bullet> N95 Masks.--80,542,775
  <bullet> KN95 Masks.--2,339,450
  <bullet> Surgical Masks.--201,533,482
  <bullet> Cloth Masks.--9,244,100
  <bullet> Face Shields.--13,941,214
  <bullet> Goggles.--1,012,609
  <bullet> Gowns.--14,157,598
  <bullet> Coveralls.--266,340
  <bullet> Gloves.--62,710,803
  <bullet> Hand Sanitizer.--8,382,421
  <bullet> Collection Kits.--3,937,986.
Leveraged Procurement Agreements
    A major part of the State's PPE strategy is leveraged procurement 
agreements. Moving forward, the California Department of General 
Services (DGS) has issued a competitive procurement for N95 and 
surgical masks. The State's intent is for public entities to leverage 
this procurement vehicle to purchase their own PPE, rather than have 
the State continue to directly procure and distribute these resources. 
The Request for Information closed on May 28, and DGS is in the process 
of preparing the Request for Proposal. Once it is in place in 
September, the State-wide procurement agreement will last for 1 year, 
with opportunities to extend if necessary.
               medical and testing supplies and capacity
    California has built public-private partnerships to drastically 
expand our ability to collect and process specimens. Through these 
efforts, we are now equipped to test over 100,000 specimens per day. 
Despite this progress, we still have work ahead of us to ensure the 
supply chain is stable and that we build adequate access to testing, 
particularly among low-income and minority communities.
    A particular problem arose with the procurement of swabs during 
this pandemic. The world's production center of critically necessary 
swabs for COVID-19 testing is located in Italy's hardest-hit province, 
which caused a global shortage of this resource. This limited supply in 
materials caused a slow start in California's ability to test. We were 
conducting only about 2,000 tests per day in early April. This shortage 
required us to innovate quickly to build out a new supply chain for 
swabs, as well as viral transport media and specimen collection kits.
    To date, California has distributed the following:

----------------------------------------------------------------------------------------------------------------
                                           Collection Kits               Swabs           Transport Media (vials)
----------------------------------------------------------------------------------------------------------------
Total................................  414,000................  3.4 million............  2.2 million.
----------------------------------------------------------------------------------------------------------------

    As a result of these efforts, California averaged just under 
106,000 tests per day from the week of July 1 to July 7. Our ultimate 
goal is to reach a consistent and sustainable minimum of 100,000 tests 
per day. As of July 9, California has conducted over 5 million tests.
    Despite this progress, new spikes in cases and new supply chain 
issues are raising concern that our testing capacity will again be 
insufficient to meet the demand. A number of commercial laboratories 
are processing samples from testing sites across the Nation, not just 
from within California, and are becoming overwhelmed with the large 
volume. Additionally, labs within California are experiencing shortages 
of chemical reagents and machine cartridges, limiting processing 
capabilities and slowing result time lines. To address this, California 
has instructed all labs to prioritize samples from high-risk groups, 
including individuals who are COVID-19 symptomatic and those who are 
hospitalized or in long-term care facilities.
    California is taking steps to further build out its testing 
capacity, even amid the current challenges. We are deploying new 
testing modalities, such as pooled testing, to better leverage 
resources. We are proactively matching organizations with laboratories 
to ensure we are leveraging all public and private lab capacity across 
the State. We have issued a survey to all local public health and 
academic labs to better understand supply constraints and fully utilize 
lab capacity for PCR testing. Finally, we are continuing to work with 
our Federal partners to address supply chain issues. Now more than 
ever, we need the Federal Government to help ensure a strong and 
sustainable supply chain so that we may continue and further build our 
testing capabilities.
Medical Surge Capacity and State Stockpile
    In addition to the actions California has taken to date, we are 
fully aware of the possibility of concurrent medical events 
overwhelming our health care system. The State knows it needs to be 
prepared for a worst-case scenario, especially given the many unknowns 
of COVID-19 transmission, its interaction with influenza, and the speed 
at which non-pharmaceutical interventions can be instituted.
    The State's role in this situation is to support the health care 
system and protect vulnerable populations by augmenting existing 
supplies with the State stockpile. It is almost impossible to predict 
what the ``right'' amount of PPE is for fall surge planning. Variables 
include the number of patients hospitalized, the geographic extent of 
the surge, how much inventory is being produced, how much PPE 
institutions have in reserve, and the affordability of available PPE to 
the private sector. The State is using data available from Johns 
Hopkins University, assumptions collected by the California Health and 
Human Services Agency, industry association partners, and internal Cal 
OES data on local demand history and PPE burn rates to arrive at 
informed estimates for the State's fall surge PPE stockpile. These 
recommendations are:
  <bullet> N95 Masks.--100,000,000
  <bullet> Surgical Masks.--200,000,000
  <bullet> Cloth Masks.--500,000
  <bullet> Face Shields.--10,000,000
  <bullet> Gowns.--50,000,000
  <bullet> Gloves (pairs).--200,000,000
  <bullet> Coveralls.--1,500,000.
Emergency Management Assistance Compact (EMAC)
    Through the Emergency Management Assistance Compact (EMAC), 
California has been able to provide assistance to other States. 
California lent ventilators to States that experienced an earlier 
COVID-19 spike and delivered PPE for reimbursement. California's 
ventilator and PPE EMAC resources include:
  <bullet> Ventilators.--Illinois, 100; Nevada, 50; Maryland, 50; 
        Washington DC, 50; New Jersey, 100; New York, 100; Delaware, 
        50; Michigan, 50. TOTAL: 1,500.
  <bullet> PPE.--Arizona, 10,000,000 Surgical Masks, 500,000 Face 
        Shields; Alaska, 13,000,000 Surgical Masks; Nevada, 3,000,000 
        Surgical Masks; Oregon, 1,000,000 Surgical Masks. TOTAL: 
        17,500,000.
                     conclusion and recommendations
    Thank you for the opportunity to testify before you and for your 
commitment to ensuring strong preparedness and response to this 
pandemic. To conclude, I offer the following recommendations:
  <bullet> FEMA should increase the Federal share to 100 percent of the 
        total eligible costs for emergency protective measures 
        (Category B), including direct Federal assistance, to reduce 
        the economic burden on State and local governments experiencing 
        significant economic impacts, and ensure the continuity of 
        public safety and medical/health services during this prolonged 
        disaster. California made this request of the Federal 
        Government on March 22, to include the first 90 days of the 
        major disaster declaration. To date, this request has not been 
        addressed by FEMA for California, nor for any other State that 
        has made this same request.
  <bullet> Congress should increase the appropriation to the Emergency 
        Management Performance Grant (EMPG) by 85 percent and reform 
        the match requirement. This pandemic has made it clear that the 
        Federal Government must invest in building and enhancing robust 
        emergency management capabilities on the State and local level. 
        EMPG funding enables State, local, and Tribal governments to 
        prepare for all hazards through planning, training, exercises, 
        and developing professional expertise. It also supports 
        response capabilities, emergency operation centers, public 
        outreach campaigns, and alert and warning programs. EMPG's 
        dollar-for-dollar match requirement has been difficult for 
        local government to match as many have not fully rebounded from 
        the recession. Due to the global economic crisis initiated by 
        the pandemic, it is more important than ever that the dollar-
        for-dollar match be reformed to a percentage cost match 
        consistent with the Hazard Mitigation Grant Program, currently 
        at 25 percent.
  <bullet> The SNS needs a thorough review and overhaul to build 
        process transparency and support more realistic expectations 
        and planning on the part of State and local government. The 
        Federal Government must better understand the demand for life-
        saving SNS resources, procure and maintain those resources, and 
        deploy them effectively.
  <bullet> The Defense Production Act should be more broadly invoked 
        for this pandemic, particularly to produce N95 respirators, to 
        relieve the supply chain.
  <bullet> The Federal Government should establish centralized 
        commodity buying. The Federal Government would have far greater 
        purchasing power than individual States. Leveraging this 
        purchasing power and securing commodities for States will 
        relieve pressure on the supply chain and competition between 
        States in purchasing PPE and testing materials.
  <bullet> As a Nation, we need to encourage more ventilator 
        manufacturing. With the current domestic manufacturing 
        capability and supply, the Nation is still far short of the 
        ventilators that would be needed in the worst-case scenario.
  <bullet> The Federal Government must improve its coordination. 
        Particularly, coordination and communication must improve 
        between HHS/ASPR, CDC, FEMA, border agencies, and regulators, 
        to include internal communication between the headquarters and 
        regional staff for these entities. Better coordination will 
        allow for more streamlined communication with States and more 
        efficient resource management and delivery, including funding.
  <bullet> The Federal Government should lead unified, coordinated 
        communications during disasters, including guidance and 
        education for States and localities, as well as talking points 
        for Government officials to use when communicating with their 
        constituents.

    Ms. Torres Small. Thank you for your testimony. Thank you.
    I now recognize Mr. Currie to summarize his statement for 5 
minutes.

 STATEMENT OF CHRIS P. CURRIE, DIRECTOR, HOMELAND SECURITY AND 
         JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Currie. Thank you, Chairwoman Torres Small, Chairman 
Payne, Chairman Thompson, Ranking Member Crenshaw, and other 
Members that are here today. I appreciate the opportunity to be 
here to talk about GAO's work on the response to COVID-19 so 
far.
    Just 3 weeks ago, we issued our first report on the overall 
Federal response to COVID-19. The report covers over $2 
trillion in Federal spending and programs, some of those 
programs which are brand-new and on a scale that we have never 
seen before.
    Our folks have been working around the clock to provide 
oversight of this funding, and our goal, as always, is to 
provide accurate, fair, and balanced information to you, the 
Congress, and also the American people.
    This pandemic and the scale of the Federal response is not 
even closely comparable to any disaster or public health 
emergency the country has faced, and we have been looking at 
this for over 2 decades, really since the anthrax attacks in 
early 2000. We have seen a marshalling of resources and a 
distribution of supplies that 8 months ago we would have 
thought was impossible. For example, for the first time in 
history every State in the Union, District of Columbia, most 
territories, and several Tribes all have Federal disaster 
declarations at the same time. That has never happened before.
    I think it is important that we recognize the Federal, 
State, and local officials responding to COVID-19 around the 
clock and the millions of health care workers on the front 
lines.
    Let me just be clear that there have been major challenges. 
However, unlike other disasters where we can only look back at 
the response, we are still responding to the pandemic and will 
be for a while. As a result, we have a unique ability in this 
case to make course corrections now to address rising COVID-19 
cases and looming challenges this fall when flu season hits and 
health experts expect COVID-19 to get even worse than it is 
now.
    I want to outline some of the challenges that we have seen 
in our work over the last few months, not to point fault or 
focus on the past, but to help figure out how we get better as 
we move forward.
    First, it is clear that existing preparedness and response 
structures and resources were overwhelmed. For example, we now 
know that the Strategic National Stockpile was not adequate to 
cover Nation-wide gaps in our public health system and 
underinvestments in that system for several decades. It is also 
more clear now that prior efforts to plan and prepare for a 
large pandemic were both, No. 1, insufficient, and No. 2, the 
gaps they did identify and who was supposed to address those 
gaps were not fixed in time for COVID-19.
    To its credit, FEMA was brought in, as you have said and 
others have said, mid-response in early March to lead the 
massive logistical effort of supply acquisition and 
distribution given these gaps. New command structures were 
established, comprised of Federal agencies to manage this 
effort. Historical efforts to procure and distribute supplies, 
such as Project Airbridge and the use of the Defense Production 
Act to manufacture things like respirators or ventilator 
components, were undertaken.
    However, as we just reported a few weeks ago, it is clear 
that there has been confusion about, No. 1, who is exactly 
making resource decisions at the Federal level and how these 
are being prioritized for distribution to State and local 
governments.
    Again, this is not surprising given the scale of the 
response, but as new supply and testing shortages arise now, we 
have to get more clear about roles and responsibilities moving 
forward between the various levels of Government.
    Second, coordination and communication have to get better. 
We have heard from States and others that it has not been clear 
why Federal resources were provided when they were and how they 
were prioritized.
    This has to work both ways, too. As States in the private 
sector build their stockpiles and capabilities, the Federal 
Government needs to know what resources they have so they can 
understand where the gaps are and do advance planning so those 
gaps can be filled when supply distributions ramp up again here 
soon as we get closer to the fall.
    Last, the Federal Government has tremendous contracting 
resources and capabilities. It is one of the key strengths it 
brings to help States and local governments in these types of 
disasters or emergencies. We have reported that the use of 
advance contracts and coordination of these contracts help 
States to avoid the need for noncompetitive contracts after 
disasters. It also helps to avoid contract awards to companies 
that we later find out are unable to deliver on their promises.
    FEMA also needs to ensure that they have adequate contract 
staff to handle this load, an issue that has been a challenge 
and will be a challenge as we get further into hurricane 
season.
    Real quickly, the last issue I want to point out is on 
after-action reporting. Years and years of work have shown us 
that after-action reports sometimes are not completed, and when 
they are, the gaps they identify are never followed up on. It 
is going to be critical that every Federal agency in this 
response, which is almost all of them, follow up on these 
actions.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Mr. Currie follows:]
                 Prepared Statement of Chris P. Currie
                             July 14, 2020
                             gao highlights
    Highlights of GAO-20-685T, a testimony before the Subcommittee on 
Oversight, Management, and Accountability, and the Subcommittee on 
Emergency Preparedness, Response, and Recovery, Committee on Homeland 
Security, House of Representatives.
Why GAO Did This Study
    The COVID-19 pandemic shows how biological threats have the 
potential to cause loss of life and sustained damage to the economy, 
societal stability, and global security. During the pandemic, 57 major 
disaster declarations were simultaneously issued for all U.S. States, 
the District of Columbia, and U.S. territories--the first time in 
history this has occurred. FEMA had obligated about $5.8 billion for 
the response as of May 31, 2020.
    This statement addresses: (1) FEMA's role in managing the COVID-19 
pandemic, including efforts to acquire and distribute critical medical 
supplies, as well as (2) potential challenges for this and other 
biological incident responses. This statement is based on products GAO 
issued from August 2003 to June 2020, as well as on-going efforts to 
monitor contract obligations. For these products, GAO reviewed relevant 
Presidential directives, statutes, regulations, policies, strategic 
plans, other reports, as well as Federal procurement data; and 
interviewed Federal and State officials, among others.
    GAO provided a copy of new contract obligation information in this 
statement to the Department of Homeland Security for review.
What GAO Recommends
    GAO made many recommendations in prior reports designed to address 
facets of many of the challenges discussed in this statement. Federal 
agencies have not fully implemented all of these but, in many cases, 
have taken steps. GAO will continue to monitor these efforts.
     covid 19.--fema's role in the response and related challenges
What GAO Found
    The Federal Emergency Management Agency (FEMA) administrator, 
together with key officials from the Department of Health and Human 
Services, is responsible for managing the whole-of-Nation COVID-19 
pandemic response. As a primary agency responsible for managing the 
response, FEMA has worked in coordination with other Federal agencies 
to increase the availability of supplies for COVID-19--including 
distributing supplies to States and others through Project Airbridge in 
an effort to expedite distribution. FEMA's contract obligations in 
response to COVID-19 totaled about $1.6 billion as of May 31, 2020, 
with obligations for goods such as surgical gowns and N95 masks 
accounting for $1.4 billion, or 86 percent of that total.
    GAO's recent report on the COVID-19 pandemic response and past work 
on other disasters has identified potential challenges FEMA faces in 
responding to the pandemic and any future Nationally-significant 
biological incidents. These challenges may be further complicated by 
the recent rise in COVID-19 cases and additional expected case 
increases in the fall.
  <bullet> Contracting.--In December 2018, GAO found inconsistencies in 
        how FEMA coordinated and communicated with States and 
        localities on advance contracts--those that are established 
        prior to disasters and are typically needed to quickly provide 
        goods and services. GAO made recommendations to improve FEMA's 
        efforts and it is taking actions to address this issue.
  <bullet> Medical supply acquisition and distribution.--In June 2020, 
        GAO reported on concerns about the distribution, acquisition, 
        and adequacy of supplies from the Strategic National Stockpile 
        and other sources. GAO will continue to monitor these issues 
        through on-going and future work.
  <bullet> Deploying disaster workforce.--In May 2020, GAO reported on 
        staffing shortages and other workforce challenges FEMA faced in 
        recent disasters. The large number of declared COVID-19 
        disasters coupled with hurricane and wildfire seasons adds 
        other potential challenges. GAO made recommendations designed 
        to enhance the information FEMA officials have to manage the 
        workforce, which FEMA agreed to implement.
  <bullet> After-action reporting.--Analyzing lessons from the COVID-19 
        pandemic response may help FEMA and other agencies take 
        corrective action for the remainder of this response and for 
        potential future biological incidents. In May 2020, however, 
        GAO reported that FEMA had not consistently completed prior 
        after-action reports. FEMA agreed to implement recommendations 
        designed to improve after-action reporting.
  <bullet> Interagency planning for biological incidents.--In June 
        2020, GAO reported that the National Biodefense Strategy sets 
        goals and objectives to help the Nation prepare for and rapidly 
        respond to biological incidents to minimize their effect and 
        could drive interagency preparedness efforts. However, 
        implementation was in early stages at the start of the 
        pandemic, and in February 2020 GAO made recommendations 
        designed to address key implementation challenges, including 
        clarifying roles and responsibilities. As shown in the COVID-19 
        response, FEMA's role in these efforts will be critical. GAO 
        will continue to monitor preparedness and strategy 
        implementation.
    Chairwoman Torres Small, Chairman Payne, Ranking Member Crenshaw, 
Ranking Member King, and Members of the subcommittees: I am pleased to 
be here today to discuss our work on the Federal Emergency Management 
Agency's (FEMA) roles and responsibilities during the response to the 
Coronavirus Disease 2019 (COVID-19) pandemic.\1\ While the COVID-19 
pandemic continues to unfold and present new challenges, it also 
demonstrates how biological threats have the potential to cause 
catastrophic loss of life and sustained damage to the economy, societal 
stability, and global security. We recently issued our first 
comprehensive look at the overall Government response to the COVID-19 
pandemic, in which we reported on the multiple Federal efforts to help 
address the health effects and the spillover effects of the pandemic on 
the economy.\2\ As of July 6, 2020, there were over 2.8 million 
reported COVID-19 cases and over 129,000 reported deaths in the United 
States, according to the Centers for Disease Control and Prevention 
(CDC). In addition, from March 21 to May 30, 2020, there was an 
increase of over 42 million unemployed Americans and an overall 
downturn in the U.S. economy. The operational response to the pandemic 
has required support from all of the Nation's existing systems and 
structures designed to help manage the response to both public health 
emergencies and natural disasters across multiple Federal departments.
---------------------------------------------------------------------------
    \1\ COVID-19 is a strain of coronavirus to which the public does 
not have immunity. It was first reported on December 31, 2019, in 
Wuhan, China. On January 31, 2020, the Secretary of Health and Human 
Services declared a public health emergency for the United States, 
retroactive to January 27. On March 13, 2020, the President declared 
COVID-19 a National emergency under the National Emergencies Act.
    \2\ GAO, COVID-19: Opportunities to Improve Federal Response and 
Recovery Efforts, GAO-20-625 (Washington, DC: June 25, 2020).
---------------------------------------------------------------------------
    To help the Nation prepare for disasters regardless of origin, the 
Department of Homeland Security (DHS) issued The National Response 
Framework, which describes how the Federal Government, States and 
localities, and other public and private-sector institutions should 
respond to disasters.\3\ For example, State, local, Tribal, and 
territorial governments are to play the lead roles in disaster response 
and recovery. Federal agencies can become involved in responding to a 
disaster, such as when the President declares a major disaster in 
response to a request by the Governor of a State or territory or by the 
chief executive of a Tribal government, pursuant to the Robert T. 
Stafford Disaster Relief and Emergency Assistance Act (Stafford 
Act).\4\ Such a request is based on a finding that the disaster is of 
such severity and magnitude that effective response is beyond the 
capabilities of the State and the affected local governments and that 
Federal assistance is necessary. A Stafford Act declaration is a key 
mechanism by which the Federal Government becomes involved in funding 
and coordinating response and recovery activities. For example, FEMA 
uses mission assignments and the Public Assistance and Individual 
Assistance programs to support response efforts and obligated $5.8 
billion for COVID-19 as of May 31, 2020.\5\ During the COVID-19 
pandemic, 57 major disaster declarations have been issued 
simultaneously for all U.S. States, the District of Columbia, and U.S. 
territories--the first time in history this has occurred.\6\
---------------------------------------------------------------------------
    \3\ Presidential Policy Directive-8 National Preparedness (PPD-8) 
establishes a National preparedness system made of an integrated set of 
guidance, programs, and processes designed to strengthen the security 
and resilience of the United States through systematic preparation for 
the natural and human-caused threats that pose the greatest risk. This 
system breaks preparedness activities into 5 different lines of 
effort--prevention, protection, mitigation, response, and recovery--
each of which requires a separate planning framework.
    \4\ 42 U.S.C.  5170.
    \5\ Mission Assignments are work orders FEMA issues that direct 
another Federal agency to utilize its authorities and the resources 
granted to it under Federal law to provide direct assistance to State, 
local, Tribal, and territorial governments. The Public Assistance 
program provides assistance to State, Tribal, territorial, and local 
governments. For example, for the COVID-related declarations, States 
can use FEMA's Public Assistance program grant funding for actions that 
lessen the immediate threat to public health and safety, like standing 
up emergency medical facilities. In addition, FEMA's Individual 
Assistance program, which provides assistance to help individuals and 
households recover following a disaster, can also reinforce State and 
local services provided to help individuals cope with the pandemic, 
such as for crisis counseling.
    \6\ Major disaster declarations include all 50 States, the District 
of Columbia, 5 territories, and the Seminole Tribe of Florida. In 
addition, 32 Tribal entities are working directly with FEMA under the 
March 13, 2020, Nation-wide emergency declaration.
---------------------------------------------------------------------------
    In May 2020, we reported that the 2017 and 2018 hurricanes, 
wildfires, and other recent disasters highlight the challenges that all 
levels of government face in preparing for and responding effectively 
to disasters--in terms of both immediate response and long-term 
recovery efforts. Our prior work has identified FEMA's challenges in 
preparing for, responding to, and recovering from major disasters and 
also highlighted the need to ensure transparency for tracking Federal 
contracting obligations for major disasters through proper accounting 
mechanisms.\7\ In its 2017 Hurricane Season After-Action Report, FEMA 
acknowledged that the agency must better prepare for sequential, 
complex disasters and address logistical challenges that may complicate 
efforts to deploy resources to remote areas.\8\ As the Nation continues 
to battle the on-going pandemic, a recent spike in case numbers, and 
additional expected increases in the fall, it also must maintain 
nimbleness to address other likely concurrent disasters, such as 
hurricanes and wildfires, that will rely on some of the same response 
capabilities currently being used to address the pandemic, including 
FEMA's workforce.
---------------------------------------------------------------------------
    \7\ GAO, National Preparedness: Additional Actions Needed to 
Address Gaps in the Nation's Emergency Management Capabilities, GAO-20-
297 (Washington, DC: May 4, 2020); and GAO, 2017 Disaster Contracting: 
Actions Needed to Improve the Use of Post-Disaster Contracts to Support 
Response and Recovery, GAO-19-281 (Washington, DC: Apr. 24, 2019).
    \8\ Federal Emergency Management Agency, 2017 Hurricane Season 
After-Action Report (Washington, DC: July 12, 2018).
---------------------------------------------------------------------------
    My testimony today highlights key findings from our recent prior 
work on: (1) FEMA's role in managing the response to the COVID-19 
pandemic, including efforts to acquire and distribute critical medical 
supplies, and (2) what our prior work suggests about potential 
challenges going forward for this and any other responses to Nationally 
significant biological incidents.\9\ The statement is based on our 
prior work issued from August 2003 through June 2020 on various 
preparedness and response issues, including those for biological 
threats, as well as our on-going efforts to monitor contract 
obligations.
---------------------------------------------------------------------------
    \9\ According to the 2018 National Biodefense Strategy, a 
``biological incident'' is: (1) Any act of biological warfare or 
terrorism; (2) a crime involving a biological agent or biologically 
active substance; or (3) any natural or accidental occurrence in which 
a biological agent or biologically active substance harms humans, 
animals, plants, or the environment. By ``Nationally significant,'' we 
mean biological incidents that have the potential for catastrophic 
consequences, such as the potential to affect a large portion of the 
United States or the potential for catastrophic economic consequences.
---------------------------------------------------------------------------
    To conduct our prior work, we reviewed relevant Presidential 
directives, statutes, regulations, policies, strategic plans, and other 
reports; and interviewed Federal and State officials, among others. 
More information on our scope and methodology can be found in each of 
the reports cited throughout this statement. As part of our work on 
FEMA's contract obligations and use of Defense Production Act 
authorities in response to COVID-19, we reviewed DHS and FEMA guidance 
and information, and Federal Procurement Data System--Next Generation 
data through May 31, 2020.\10\ We identified contract actions and 
associated obligations related to COVID-19 using the National Interest 
Action code, as well as the contract description. We assessed the 
reliability of Federal procurement data by reviewing existing 
information about the Federal Procurement Data System--Next Generation 
and the data it collects--specifically, the data dictionary and data 
validation rules--and performing electronic testing. We determined that 
the data were sufficiently reliable for the purposes of describing 
FEMA's reported contract obligations in response to COVID-19.
---------------------------------------------------------------------------
    \10\ For the purposes of this statement, ``contract obligations'' 
means obligations on contracts that are subject to the Federal 
Acquisition Regulation, and does not include, for example, grants, 
cooperative agreements, loans, other transactions for research, real 
property leases, or requisitions from Federal stock.
---------------------------------------------------------------------------
    The work upon which this statement is based was conducted in 
accordance with generally accepted Government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
              fema's role in managing the covid-19 response
    Leadership of the whole-of-Nation response.--As part of the 
interagency group with responsibility for leading the whole-of-Nation 
response and the Federal official responsible for the operations of the 
National Response Coordination Center (NRCC),\11\ the FEMA 
administrator has a key role in managing the COVID-19 response. This 
includes responding to States' needs for critical medical supplies.\12\ 
According to the FEMA administrator's June 2020 testimony before the 
Senate Committee on Homeland Security and Government Affairs, on March 
19, under the direction of the White House Coronavirus Task Force, FEMA 
moved from playing a supporting role in assisting the U.S. Department 
of Health and Human Services (HHS), which was designated as the initial 
lead Federal agency for the response, to directing it.
---------------------------------------------------------------------------
    \11\ The NRCC is a multiagency coordination center located within 
FEMA headquarters.
    \12\ GAO-20-625.
---------------------------------------------------------------------------
    As with any emergency or major disaster requiring a coordinated 
Federal response, the NRCC serves as the interagency coordination hub 
for response actions and resources for the COVID-19 pandemic response. 
According to FEMA officials, to help lead the response, the 
administrator activated the NRCC to the highest level--which includes 
full staffing of all key interagency functions--on March 19. The NRCC 
can bring to bear the existing authorities, processes, resources, and 
funding that the various Federal agencies can offer to meet response 
needs.
    The Unified Coordination Group--made up of the FEMA administrator, 
the HHS assistant secretary for preparedness and response, and a CDC 
representative--has responsibility for operational command, leadership, 
and decision making for the COVID-19 pandemic response. The 3 leaders 
are partners in operational decision making for the response and 
provide input to the White House Coronavirus Task Force. According to 
FEMA and HHS officials involved in the response and operational 
documents used in response coordination, FEMA, the Assistant Secretary, 
and CDC have complementary roles that correspond to their missions and 
expertise. The FEMA administrator, for example, focuses on directing 
Nation-wide operational needs--such as the logistics of moving 
material, supplies, and personnel to meet emergent needs and tracking 
the delivery of these supplies. We are conducting on-going work 
reviewing FEMA's actions in response to the pandemic under the Stafford 
Act, including any challenges FEMA faces in coordinating and providing 
resources to States and Tribal entities.
    Efforts to acquire and distribute critical medical supplies.--FEMA 
has relied on various mechanisms to procure needed goods and services. 
As part of the Federal response to the pandemic, FEMA has worked in 
coordination with HHS and the Department of Defense (DOD) to increase 
the availability of supplies for COVID-19--including purchasing and 
distributing supplies to States and others. As part of the response led 
out of the NRCC, task forces, representing different functional lines 
of effort, provide operational guidance and secure resources to 
coordinate the whole-of-Government response. We reported in June 2020, 
that, according to FEMA officials, these task forces bring together 
Federal departments and agencies with the relevant expertise, 
authorities, and capabilities necessary to address unmet needs.\13\ One 
of these is the Supply Chain Task Force, which is led jointly by 
detailees from DOD and FEMA and has the objective of maximizing the 
Nation-wide availability of mission-essential protective and life-
saving resources and equipment based on need.
---------------------------------------------------------------------------
    \13\ GAO-20-625.
---------------------------------------------------------------------------
    According to FEMA officials, the Supply Chain Joint Task Force's 
efforts have largely been led by FEMA's Office of the Chief Procurement 
Officer to address limited supplies of personal protective equipment, 
ventilators, and other needed resources.\14\ FEMA has used various 
contracting mechanisms to support its efforts.
---------------------------------------------------------------------------
    \14\ In May 2020, FEMA officials told us that HHS, FEMA, and the 
Supply Chain Task Force would be transitioning some of the procurement 
responsibilities previously led by FEMA to DOD.
---------------------------------------------------------------------------
    Based on preliminary observations from our on-going review of 
Government-wide contract obligations, FEMA's contract obligations in 
response to COVID-19 totaled about $1.6 billion as of May 31, 2020, 
with obligations for goods accounting for $1.4 billion, or 86 percent 
of that total. Our preliminary analysis of contract obligations 
reported in the Federal Procurement Data System--Next Generation 
indicates that over three-quarters of FEMA's obligations on goods were 
reported as medical and surgical equipment, such as reusable surgical 
gowns and N95 respirators or masks for medical professionals. See 
figure 1 for the top categories of goods and services FEMA procured.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Our preliminary analysis also found that about $1.4 billion of 
FEMA's contract obligations were awarded on new contracts, compared to 
preexisting contracts established before the pandemic.\15\ We plan to 
issue future products focused on agencies' planning and management of 
contracts awarded in response to the pandemic, including a report later 
this month that will describe, among other things, key characteristics 
of Federal contracting obligations awarded in response to COVID-19.
---------------------------------------------------------------------------
    \15\ New contract obligations include obligations on new definitive 
contracts (as reported in the Federal Procurement Data System-Next 
Generation), purchase orders, indefinite delivery vehicles, and blanket 
purchase agreements awarded after February 4, 2020--the date of the 
first contract obligations in response to COVID-19--and all associated 
orders, calls, and modifications to these awards. Preexisting contract 
obligations include obligations on orders, calls, and modifications to 
definitive contracts, purchase orders, indefinite delivery vehicles, 
and blanket purchase agreements awarded prior to February 4, 2020. A 
definitive contract means any contract that must be reported in the 
Federal Procurement Data System--Next Generation other than an 
indefinite delivery vehicle. This definition is only relevant for 
Federal Procurement Data System--Next Generation reporting.
---------------------------------------------------------------------------
    In addition to contracting for goods and services, we further 
reported in June 2020 that, as part of the Supply Chain Task Force, 
FEMA has also been involved in the delivery of personal protective 
equipment and supplies through Project Airbridge.\16\ This effort--
developed in coordination with 6 large medical supply distributors--was 
intended to reduce the time it takes to receive needed supplies from 
overseas manufacturers. According to FEMA, the agency pays for the air 
transportation of supplies from overseas to the United States, 50 
percent of which are distributed to areas of need based on CDC data. 
The medical suppliers distribute the remaining 50 percent through their 
normal commercial networks, although, according to FEMA officials, the 
Federal Government has purchased some of these supplies to provide to 
the States. In mid-June, FEMA reported that the Unified Coordination 
Group is phasing out Project Airbridge, now that the supply chain for 
personal protective equipment has stabilized across the United States.
---------------------------------------------------------------------------
    \16\ GAO-20-625.
---------------------------------------------------------------------------
    Use of Defense Production Act authorities.--Based on preliminary 
observations of our on-going work on the use of the Defense Production 
Act, FEMA has used Defense Production Act Title I authority to place 
priority ratings on orders of personal protective equipment in response 
to COVID-19.\17\ Specifically, FEMA officials told us they placed 
priority ratings on 3 orders from 3M and received about 49 million N95 
respirators from April 12, 2020, through May 20, 2020. According to DHS 
Acquisition Alert Notice 20-13, DHS components must seek authorization 
by the Unified Coordination Group and the White House Task Force before 
placing a priority rating on a contract for COVID-19. Our on-going work 
will further examine FEMA's role in procuring and distributing critical 
goods and how Federal agencies used authority under the Defense 
Production Act to obtain needed supplies.
---------------------------------------------------------------------------
    \17\ According to DHS guidance on the Federal Priorities and 
Allocations System, a contract or order containing a priority rating 
requires the contractor (and the contractor's supply chain) to provide 
preferential treatment to fulfil the delivery requirements of the rated 
contract or order. Department of Homeland Security, Office of the Chief 
Procurement Officer, Federal Priorities and Allocations System: A Guide 
for Placing Priority Ratings on Contracts and Orders (Washington, DC: 
March 2020).
---------------------------------------------------------------------------
           potential challenges in this and future responses
    Our prior work and the nature of this response suggest issues that 
may present challenges for FEMA as this response continues and for any 
future incidents. Monitoring known challenges and incorporating lessons 
learned from the early phases of the COVID-19 response will provide 
critical information to inform improvement efforts for the on-going 
response. Moreover, as the Federal Government continues to take 
necessary steps to protect the American public during the on-going 
pandemic, we must not lose sight of the next potential threat. Our work 
had identified challenges, and in many cases made recommendations, that 
may be relevant for FEMA. Among these are challenges related to: (1) 
Contracting, (2) medical supply acquisition and distribution during the 
pandemic, (3) deploying the disaster workforce, (4) after-action 
reporting, (5) interagency planning for Nationally significant 
biological incidents, and (6) building and assessing non-Federal 
capabilities for such incidents.
    Contracting.--Our prior work has identified coordination challenges 
between FEMA, other Federal agencies, and States and localities related 
to the use of contracts following the 2017 disasters. In April 2019, we 
found that FEMA's guidance lacked details on how FEMA and other Federal 
agencies should coordinate contracting considerations as part of 
mission assignments.\18\ We recommended that FEMA revise its mission 
assignment policy and guidance to better incorporate consideration of 
contracting needs and to ensure clear communication of coordination 
responsibilities related to contracting. FEMA concurred with the 
recommendation and stated it would work with other Federal agencies to 
develop mission assignment tools, training, and guidance to address 
these issues.
---------------------------------------------------------------------------
    \18\ GAO-19-281.
---------------------------------------------------------------------------
    We have also identified challenges with FEMA's coordination and 
communication with States and localities over the use of advance 
contracts. In December 2018, we found inconsistencies in how FEMA was 
coordinating with States and localities and the information FEMA used 
to communicate with States and localities on advance contracts.\19\ We 
recommended that FEMA provide specific guidance to its contracting 
officers to perform outreach to States and localities to encourage and 
guide them on the use and establishment of advance contracts, and 
communicate information on available advance contracts. FEMA concurred 
with our recommendations and has taken some steps to update its 
guidance and improve communication. Effective coordination between FEMA 
and its Federal, State, and local partners helps ensure that 
stakeholders have the tools needed to facilitate their emergency 
response efforts.
---------------------------------------------------------------------------
    \19\ GAO, 2017 Disaster Contracting: Action Needed to Better Ensure 
More Effective Use and Management of Advance Contracts, GAO-19-93 
(Washington, DC: Dec. 6, 2018).
---------------------------------------------------------------------------
    Moreover, our prior work has noted that agencies, including FEMA, 
can leverage contracts awarded in advance of a disaster to rapidly and 
cost-effectively mobilize resources and that these contracts can help 
preclude the need to procure critical goods and services 
noncompetitively.\20\ In December 2018, we recommended that FEMA update 
its advance contract strategy to clearly define the objectives of 
advance contracts, how they contribute to FEMA's disaster response 
operations, and how they should be prioritized in relation to new, 
post-disaster contract awards. FEMA concurred with this recommendation 
and has taken some steps to provide additional guidance on the use of 
advance contracts, but its actions are still in progress. Our future 
work will examine contracting lessons learned related to planning for 
future public health emergencies.
---------------------------------------------------------------------------
    \20\ GAO-19-93.
---------------------------------------------------------------------------
    Medical supply acquisition and distribution during the pandemic.--
In June 2020, we reported on concerns about the distribution, 
acquisition, and adequacy of supplies from the Strategic National 
Stockpile and other sources.\21\ For example, in April 2020, the 
National Governors Association--whose membership comprises State 
governors, territories, and commonwealths--noted in a memorandum to 
Governors' offices that Governors individually and through the 
association had called for improved coordination in the Federal 
response to enable States to obtain critical supplies.\22\
---------------------------------------------------------------------------
    \21\ GAO-20-625. The Strategic National Stockpile, which is 
overseen by the HHS Assistant Secretary for Preparedness and Response, 
is the largest Federal repository of critical medical supplies. When 
FEMA was designated as the lead Federal agency for the pandemic 
response, responsibility for allocation, distribution, and procurement 
of supplies shifted from HHS to the Supply Chain Task Force.
    \22\ National Governors Association, Governor Actions to Address 
PPE and Ventilator Shortages (Washington, DC: Apr. 13, 2020), available 
at https://www.nga.org/wp-content/uploads/2020/04/NGA-Medical-
Equipment-Memo.pdf.
---------------------------------------------------------------------------
    The National Governors Association further noted that a more 
coordinated Federal role would help States to obtain personal 
protective equipment, ventilators, and other critical supplies to 
protect responders and save lives without competition between States 
and with the Federal Government. Similarly, the Governors of Colorado 
and Michigan testified before the House Committee on Energy and 
Commerce in June 2020 that coordination of supplies between the Federal 
Government and States needed to be improved. We previously raised 
concerns about supply gaps. Specifically, in 2003, we reported that 
urban hospitals lacked the necessary equipment, such as personal 
protective equipment, to respond to a large influx of patients 
experiencing respiratory problems caused by a bioterrorism event.\23\ 
Such an event would require a similar response to the naturally-
occurring COVID-19 outbreak.
---------------------------------------------------------------------------
    \23\ GAO, Hospital Preparedness: Most Urban Hospitals Have 
Emergency Plans but Lack Certain Capacities for Bioterrorism Response, 
GAO-03-924 (Washington, DC: Aug. 6, 2003).
---------------------------------------------------------------------------
    Officials from the HHS Assistant Secretary for Preparedness and 
Response's office and FEMA officials told us that they did not consider 
the views of the National Governors Association to be representative or 
reflective of the entire response effort. Moreover, HHS officials noted 
that many State stockpiles were inadequate and that public reporting 
provides examples where Governors and mayors made unnecessarily large 
demands for Federal resources. FEMA officials also noted that States 
overestimated their needs for supplies, such as ventilators. Although 
we requested information on the Strategic National Stockpile inventory 
prior to the pandemic--such as the types and amounts of supplies that 
States requested, as well as what the assistant secretary and FEMA 
distributed from the stockpile in response to States' requests--HHS and 
FEMA had not yet provided this information as of June 12, 2020. We plan 
to continue to seek this information from the agencies.
    In addition to the statements made by the National Governors 
Association, in June 2020, a National Emergency Management Association 
official testified before the Senate Committee on Homeland Security and 
Government Affairs about the challenges States faced accessing the 
Strategic National Stockpile. These challenges included limited 
visibility into the availability of supplies and a failure to receive 
items needed in a sufficient quantity or useable condition. For 
example, some States reported receiving supplies that were past a 
functional expiration date. In addition, this official noted that 
States reported problems with receiving supplies from other sources 
intended to fill the gap in the stockpile, such as long delivery times 
(e.g., 46 days for a shipment of surgical gowns for one State), 
shipments sent to the wrong locations, and supplies ordered that never 
arrived.
    We are conducting a comprehensive body of work on the Strategic 
National Stockpile in response to the Pandemic and All-Hazards 
Preparedness and Advancing Innovation Act of 2019 and the CARES 
Act.\24\ As part of this work, we plan to review progress made in 
restructuring the stockpile based on lessons learned from recent 
pandemics, an effort the administration announced on May 14, 2020. 
Further, we also plan to examine the alignment of supplies in the 
stockpile with threat risks; coordination and communication with 
States, territories, localities, and Tribes; and actions taken, if any, 
to mitigate supply gaps. We are also examining the role that FEMA 
played in distributing supplies in conjunction with HHS and others and 
how Federal agencies used authority under the Defense Production Act to 
obtain needed supplies.
---------------------------------------------------------------------------
    \24\ Pandemic and All-Hazards Preparedness and Advancing Innovation 
Act of 2019, Pub. L. No. 116-22,  403(a)(5), 133 Stat. 905, 946-47; 
CARES Act, Pub. L. No. 116-136,  19010, 134 Stat. 281, 579-81 (2020).
---------------------------------------------------------------------------
    Deploying disaster workforce.--FEMA may face challenges in its 
ability to deploy its workforce in response to other disasters in 
addition to COVID-19. In May 2020, we reported that FEMA faced staffing 
shortages during the 2017 and 2018 disaster seasons, 2 years that were 
particularly challenging due to the number and severity of disasters 
experienced.\25\ We further reported that FEMA's qualification and 
deployment processes did not provide reliable and complete staffing 
information to field officials to ensure effective use of the deployed 
workforce. We made recommendations on this issue, among others, which 
FEMA agreed to implement.
---------------------------------------------------------------------------
    \25\ GAO, FEMA Disaster Workforce: Actions Needed to Address 
Deployment and Staff Development Challenges, GAO-20-360 (Washington, 
DC: May 4, 2020).
---------------------------------------------------------------------------
    Our prior work has also found that FEMA's ability to plan and 
manage contracts during a disaster is also complicated by persistent 
acquisition workforce challenges, including attrition and staffing 
shortages. In April 2019, we found that FEMA had identified workforce 
shortages as a challenge but had not assessed its contracting workforce 
needs since at least 2014.\26\ We recommended that FEMA assess its 
workforce needs to address these shortcomings and develop a plan, 
including time lines. FEMA concurred with the recommendation and has 
taken some steps to address it.
---------------------------------------------------------------------------
    \26\ GAO-19-281.
---------------------------------------------------------------------------
    The large number of declared disasters for the COVID-19 pandemic 
and the lack of disaster management experience in this area add 
additional layers of complexity to FEMA's response. Therefore, it is 
critical that FEMA give leaders and managers in the field information 
to help them respond flexibly and effectively. While continuing to 
respond to the pandemic, FEMA and the Federal Government must also be 
prepared to respond when the next disaster inevitably strikes. We will 
continue to monitor Federal efforts to respond to the pandemic--
including FEMA's role in coordinating response and recovery efforts 
Nation-wide and Federal efforts to prepare for large-scale biological 
events--as well as challenges FEMA and other Federal agencies face in 
ensuring that they are able to respond to major disasters and 
emergencies effectively and equitably.
    FEMA after-action reporting.--FEMA policy requires that after-
action reviews be conducted after Presidentially-declared major 
disasters to identify strengths, areas for improvement, and potential 
best practices of response and recovery efforts. However, we reported 
in May 2020 that, as of January 2020, FEMA had completed after-action 
reviews for only 29 percent of disasters since January 2017.\27\ 
Further, we reported that FEMA lacks a formal mechanism for documenting 
and sharing best practices, lessons learned, and corrective actions 
Nation-wide.
---------------------------------------------------------------------------
    \27\ GAO-20-297.
---------------------------------------------------------------------------
    Information collected and reported following a pandemic can inform 
responses to future public health emergencies. Furthermore, the 
National Response Framework specifies that evaluation and continual 
process improvement are cornerstones of effective preparedness. 
Ensuring that FEMA and all other agencies participating in the COVID-19 
response are consistently identifying best practices and areas of 
improvement will be critical to mounting an effective response now and 
in the future. In May 2020, we recommended that FEMA prioritize the 
completion of after-action reviews, document lessons learned at the 
headquarters level, and develop guidance for sharing such reviews with 
external stakeholders, when appropriate. DHS concurred with our 
recommendations and stated that it is taking steps to address them, 
including by implementing a new system for tracking best practices and 
lessons learned, among other things.
    Interagency planning for Nationally significant biological 
events.--Since 2011, we have called for a more strategic approach to 
guiding the systematic identification of risks, assessing resources 
needed to address those risks, and prioritizing and allocating 
investments across the biodefense enterprise.\28\ In September 2018, 
the White House issued the National Biodefense Strategy (Strategy) and 
characterized it as a new direction to protect the Nation against 
biological threats. At the same time, the President issued the 
Presidential Memorandum on the Support for National Biodefense/National 
Security Presidential Memorandum-14 (NSPM-14), which details a 
governance structure and implementation process to achieve the 
Strategy's goals. For example, it established 2 governing bodies: The 
Biodefense Steering Committee--chaired by the Secretary of HHS--and the 
Biodefense Coordination Team, to support the efforts of the Steering 
Committee. In our February 2020 report, we found that the Strategy and 
associated plans bring together all the key elements of Federal 
biodefense capabilities, which presents an opportunity to identify gaps 
and consider enterprise-wide risk and resources for investment trade-
off decisions.\29\
---------------------------------------------------------------------------
    \28\ GAO, Opportunities to Reduce Potential Duplication in 
Government Programs, Save Tax Dollars, and Enhance Revenue, GAO-11-
318SP (Washington, DC: Mar. 1, 2011). The biodefense enterprise is the 
whole combination of systems at every level of Government and the 
private sector that contribute to protecting the Nation and its 
citizens from potentially catastrophic effects of a biological event. 
It is composed of a complex collection of Federal, State, local, 
Tribal, territorial, and private resources, programs, and initiatives 
designed for different purposes and dedicated to mitigating both 
natural and intentional risks.
    \29\ GAO, National Biodefense Strategy: Additional Efforts Would 
Enhance Likelihood of Effective Implementation, GAO-20-273 (Washington, 
DC: Feb. 19, 2020).
---------------------------------------------------------------------------
    In February 2020, we reported that the Strategy and its associated 
plans bring together the efforts of Federal agencies with significant 
biodefense roles, responsibilities, and resources to address 
intentional, accidental, and naturally-occurring threats and is an 
important step toward the kind of enterprise-wide strategic decision 
making we have called for. In June 2020, we also reported that the 
Strategy sets goals and objectives to help the Nation prepare for and 
rapidly respond to biological incidents to minimize their effect. As 
such, implementing the strategy could help the Federal Government 
prepare for Nationally significant events like the COVID-19 pandemic.
    However, as we reported in February 2020, the Strategy efforts 
under way represented a start to a process and a cultural shift that 
may take years to fully develop. Given the timing of the COVID-19 
pandemic, the Strategy had not had time to drive change in response 
planning and other biodefense functions, and we identified multiple 
challenges that could affect the Strategy's implementation, including 
challenges in adapting to new procedures, a lack of clarity in roles 
and responsibilities for joint decision making, and a lack of defined 
resources to sustain on-going efforts. We made recommendations to the 
Secretary of Health and Human Services, as the agency responsible for 
coordinating interagency strategy efforts to address these 
implementation challenges. HHS agreed to implement these 
recommendations. Given the experience of the COVID-19 response, FEMA's 
role and contribution to on-going interagency planning efforts for 
Nationally significant biological incidents will be critical. We have 
on-going work on preparedness for and response to COVID-19 and other 
such Nationally significant events and expect to report in early 2021.
    Building and assessing capabilities.--In our February 2020 review 
of the National Biodefense Strategy, we reported that the initial 
Federal effort to collect information on all biodefense-related 
programs, projects, and activities focused on existing Federal 
activities and did not include a complete assessment of biodefense 
capabilities at the non-Federal level--capabilities needed to achieve 
the goals and objectives outlined in the Strategy. We recommended that 
HHS take steps to ensure that non-Federal resources and capabilities 
are accounted for in the analysis of the Nation's biodefense efforts. 
HHS agreed and described steps it is taking to address this 
recommendation.
    Capabilities at the non-Federal level are critical for supporting 
key functions in biological incident response, and building them has 
been an on-going challenge, as our prior work demonstrates. According 
to Federal, State, and local officials, early detection of potentially 
serious disease indications nearly always occurs first at the local 
level, making the capabilities of personnel, training, systems, and 
equipment that support detection at the State and local level a 
cornerstone of our Nation's biodefense posture.\30\ In June 2019, we 
testified that establishing and sustaining biosurveillance capabilities 
can be difficult for a myriad of reasons.\31\ For example, maintaining 
expertise in a rapidly changing field is difficult, as is the challenge 
of accurately recognizing the signs and symptoms of rare or emerging 
diseases.\32\ Additionally, we reported in October 2011 that funding 
targeted for specific diseases does not allow for a focus on a broad 
range of causes of morbidity and mortality, and Federal officials have 
said that the disease-specific nature of funding is a challenge to 
States' ability to invest in core biosurveillance capabilities.\33\ As 
we testified in June 2019, implementation of the National Biodefense 
Strategy offers the opportunity to design new approaches to identifying 
and building a core set of capabilities for emerging infectious 
diseases. However, implementation efforts are on-going and it is yet to 
be determined how, if at all, implementation efforts will address this 
long-standing challenge.
---------------------------------------------------------------------------
    \30\ GAO, Biosurveillance: Non-Federal Capabilities Should Be 
Considered in Creating a National Biosurveillance Strategy, GAO-12-55 
(Washington, DC: Oct. 31, 2011).
    \31\ GAO, Biodefense: The Nation Faces Long-standing Challenges 
Related to Defending Against Biological Threats, GAO-19-635T 
(Washington, DC: June 26, 2019). Biosurveillance, as defined by the 
July 2012 National Strategy for Biosurveillance, is the on-going 
process of gathering, integrating, interpreting, and communicating 
essential information related to all-hazards threats or disease 
activity affecting human, animal, or plant health, for the purpose of: 
(1) Achieving early detection and warning, (2) contributing to overall 
situational awareness of the health aspects of the incident, and (3) 
enabling better decision making at all levels.
    \32\ GAO, Biosurveillance: Efforts to Develop a National 
Biosurveillance Capability Need a National Strategy and a Designated 
Leader, GAO-10-645 (Washington, DC: June 30, 2010).
    \33\ GAO-12-55.
---------------------------------------------------------------------------
    In our prior work in March 2011, we also recommended that FEMA 
complete a National preparedness assessment of capability gaps at each 
level of Government based on tiered, capability-specific performance 
objectives to enable prioritization of grant funding.\34\ However, as 
of March 2020, this recommendation has not been implemented.
---------------------------------------------------------------------------
    \34\ GAO-11-318SP.
---------------------------------------------------------------------------
    In summary, the response to the COVID-19 pandemic has relied on 
both public health and emergency management capabilities, which are 
often governed by different authorities and directed by different 
agencies at the Federal and non-Federal level. As the Government looks 
to the future and takes steps to plan, prepare, and respond to future 
biological incidents of National concern, addressing the 
recommendations we have made to better address capability gaps can help 
better position the Nation for what comes next. We are planning 
upcoming work on Federal efforts at DHS and HHS to support building 
non-Federal capabilities to respond to and recover from Nationally 
significant biological incidents.
    Chairwoman Torres Small, Chairman Payne, Ranking Member Crenshaw, 
Ranking Member King, and Members of the subcommittees, this concludes 
my prepared statement. I would be happy to respond to any questions you 
may have at this time.

    Ms. Torres Small. Thank you for your testimony, Mr. Currie. 
I deeply appreciate it.
    I thank all of the witnesses for their testimony, and I 
will remind each Member that he or she will have 5 minutes to 
question the panel. Without objection, Ms. Jackson Lee will be 
permitted to sit and question the witnesses as well.
    I now recognize myself for questions.
    We have heard, especially toward the start of this 
pandemic, the market for PPE and other medical equipment was 
difficult to navigate, to say the least, due to competition 
from other States and little guidance from the Federal 
Government.
    Mr. Fugate, as the lead Federal agency, what do you think 
FEMA's role should have been in providing a National 
procurement strategy to avoid unnecessary competition and 
bidding wars between States?
    Mr. Fugate. Well, for FEMA this is brand-new. They don't 
procure this type of equipment on these scales. So the learning 
curve is very painful. I think probably the biggest problem I 
saw early on is nobody was thinking a big number.
    If you are going to use the Defense Production Act, you 
have to use it early. The problem is, there was not certainty 
it was going to get that bad. We can go back to H1N1 in 2009 
where we prepared for a much worse pandemic, but the United 
States was basically spared some of the impacts other country 
did.
    So we didn't have a big number, we didn't turn on things 
early because the indicators, by the time it indicated a need, 
were already behind the power curve, and then it was a mad 
scramble. Everybody was trying to get PPE and it became a 
competition.
    I think we have to codify these rules ahead of time.
    Ms. Torres Small. Thank you, Mr. Fugate.
    Mr. Currie, do you have anything to add in terms of FEMA's 
role in providing a National strategy?
    Mr. Currie. Well, I agree with Mr. Fugate. I don't think 
anybody at the Federal level expected the pandemic to be this 
bad, and, as you said, this is why FEMA was called in late in 
the game, because they were the only ones left that actually 
had resources anywhere close to be able to handle something 
like this.
    I have to go back to preparedness. We have found over and 
over, again, for example, in 2019, Crimson Contagion, the 
exercise was conducted that was very similar to a pandemic 
situation like this, one of the key vulnerabilities it 
identified was that supply distribution and prioritization was 
going to be a mess.
    So we didn't take the steps and didn't devote the resources 
to address it then. It is very difficult to address these 
things before something like this actually happens. But we do 
have the information to do it.
    I think now, as I said in my opening, this response is 
still on-going, so all is not lost. We are not just looking 
back. We can address these issues now for the future.
    Ms. Torres Small. Thank you, Mr. Currie.
    Mr. Ghilarducci, California has an incredibly diverse 
population in several rural communities, which is similar to my 
State of New Mexico.
    Can you talk about whether there are any inequalities in 
the availability of supplies within the State and how you 
ensure that rural areas are adequately equipped to combat 
COVID-19?
    Mr. Ghilarducci. Yes. Great question.
    So one of the major efforts that we put forth and lean deep 
into is to ensure that our rural communities in areas where 
maybe communities that had a lack of direct access to these 
kind of commodities were sourced and supplied efficiently and 
effectively, particularly smaller hospitals.
    We would wrap around those smaller health care systems with 
not only PPE, but personnel, to ensure that they had the 
capability they need to sustain themselves.
    But look, it is a big State and part of the effort was to 
initially decompress hospitals. So part of that was building in 
these Federal and field medical stations and other kinds of 
field alternative care sites to be able to help those 
communities.
    In rural California and in far north California, where we 
have very diverse populations, those were primary areas to 
ensure that we had enough resources.
    Ms. Torres Small. Thank you, Mr. Ghilarducci.
    To follow up on that, part of the diversity is Indian 
Tribes, and right now FEMA assistance for COVID-19 requires a 
25 percent match from States and Indian Tribes at a time when 
the virus is also drying up State and Tribal revenues and 
leading to budget shortfalls.
    So in the limited remaining time, can you speak on the 
disproportionate impact the virus is having, and start with 
whether you believe waiving the cost-share would enhance 
Tribes' ability to respond to the pandemic?
    Mr. Ghilarducci. Well, certainly Tribes are unique in that 
they have the opportunity to either acquire assistance from the 
Federal Government directly or in some cases come to the State 
for assistance.
    But let me be clear, waiving the cost share in this 
particular endeavor, this is such a massive, complicated event 
that is long, really a marathon, the fiscal impact across the 
board, as we have seen in the State, across other States in the 
country, is massive.
    So if any event would be required to waive the cost-share 
really it would be this one and it certainly could be very 
beneficial to Tribes and local governments and State 
governments as well.
    Ms. Torres Small. Thank you, Mr. Ghilarducci.
    I yield the remainder of my time.
    So I now recognize the Ranking Member of the Subcommittee 
on Oversight, Management, and Accountability, the gentleman 
from Texas, Mr. Crenshaw, for questions.
    Mr. Crenshaw. Thank you, Madam Chairwoman.
    Again, thank you, everyone, for being here.
    This question is for Mr. Fugate. I just want to get a sense 
of--we can always nitpick and Monday morning quarterback in 
hindsight, but that is useful only to an extent. We have to 
understand what is truly possible to change in a realistic way.
    So along those lines, when it became clear that certain 
items were needed as part of the response, Operation Airbridge 
brought in and distributed PPE and other needed supplies. The 
Defense Production Act was invoked to ramp up ventilator 
production. On February 24, the President asked Congress for 
money to fight COVID. It was, unfortunately, delayed at least a 
week after requested.
    Congress passed 3 COVID-related bills in March that were 
signed into law, and the Federal Government, through the 
Coronavirus Task Force, has continued to provide support.
    What additional action should the Federal Government have 
taken? I mean, when was there a fork in the road where we went 
left and we should have gone right? That would be a critical 
way to assess what we could have done better and maybe learn 
lessons for the future.
    Mr. Fugate. Well, my observations--and, again, this is my 
opinion--we never looked at worst-case, big-number scenarios.
    My experience has been we always try to make the disaster 
fit our capabilities instead of looking at how bad something is 
going to be and what would be the potential shortfalls and how 
would we address it.
    As you find with pandemics, if you are waiting for 
certainty, you are too late. So it was we weren't looking at 
big enough numbers to see what the delta was between what we 
were doing and what the potential demand was.
    Quite honestly, I would much rather testify to you that I 
got too much stuff than I ran out. I think that is the thing we 
have to really enforce here, is that we cannot right-size these 
types of responses. We have to have too much or we are always 
going to run out.
    Mr. Crenshaw. Are you referring to--it seems like, as Mr. 
Currie had stated before, you are not referring to a decision 
made in the last few months; you are referring to decisions 
made over the last few years of preparation.
    Mr. Fugate. Absolutely.
    Mr. Crenshaw. OK.
    Mr. Fugate. We looked at our stockpile as a push package. 
It was never designed to respond to a pandemic. It was only 
designed to be the first things out the door. But we have to 
also understand what the demand signal was, and with a novel 
virus, there was no telling.
    So essentially you can start taking what I call 
[inaudible]. How many people in the health care industry are we 
going to have to provide PPE for in every State simultaneously? 
That is a big number. What is our delta between what we can do 
now and what we can do to meet that number?
    Mr. Crenshaw. Do you have any insight as to why, after 
H1N1, our N95 mask depletion in the National Stockpile was down 
75 percent, if the numbers that I am hearing are correct, and 
that they were never replenished? Is there any good reason why 
that is?
    Mr. Fugate. Yes. It was called sequestration.
    Mr. Crenshaw. Even though overall funding increased for the 
National Stockpile?
    Mr. Fugate. There were a lot of decisions made that it took 
time to rebuild. But we identified that the stockpile was only 
going to be a push package and that a pandemic would have to be 
augmented by production, purchasing, and ultimately the Defense 
Production Act.
    Mr. Crenshaw. OK. Sticking with you Mr. Fugate, does FEMA 
have the necessary authorities under the Stafford Act to 
respond to pandemics? Is there something you would change?
    Mr. Fugate. Yes. I would add pandemics to the definition of 
a major Presidential disaster declaration. Senator Collins 
actually tried to introduce this back in 2008, I believe.
    There is also a Congressional Research report to Congress 
on whether or not FEMA can declare pandemics under the Stafford 
Act. Ultimately, it was always going to be a decision of the 
President, but because it is not listed, it tends to be a 
hindrance that it is not seen as FEMA's role to prepare for 
this.
    Mr. Crenshaw. One thing that has interested me as we sort-
of have this National debate over response is I hear from 
States sometimes that they felt like there was not enough of a 
National plan, and then I also hear that they weren't given the 
flexibility they needed to, say, do their testing planning the 
way they would have liked to.
    So as far as the State-Federal relationship, are we still 
basically on the right track? What lessons can we learn? What 
should be shifted in that relationship?
    Mr. Fugate. Having worked on both sides of this, I will 
tell you, I see the Federal Government as the rules and the 
tools and the funding. Then States, territories, and Tribes 
implement it to their specific constituencies. What works in 
Florida won't work in North Dakota. But we should be using the 
same standards and guidelines to implement those programs 
giving flexibility to the Governors and their teams for the 
implementation.
    Mr. Crenshaw. Would you say this? From my point of view 
that seems to be how it is always supposed to have happened and 
how it basically has been happening now, obviously, with some 
[inaudible] here and there.
    Mr. Fugate. Yes, I would agree. I think that I have heard 
calls for a Federal czar to take over and run all this, and I 
would defer to that. One person in the District of Columbia is 
not going to be able to make this work, but we need to have 
consistent guidance on the Federal side consistent with 
increased forces so that States can implement this as it is 
best for the States.
    Ms. Torres Small. Thank you.
    Mr. Crenshaw. I yield back.
    Ms. Torres Small. Thank you, Ranking Member.
    The Chair now recognizes the Chair of the Subcommittee on 
Emergency Preparedness, Response, and Recovery, the gentleman 
from New Jersey, Mr. Payne, for questions.
    Mr. Payne. Thank you, Madam Chairwoman. I would like to 
thank the gentlelady from New Mexico.
    Mr. Fugate, it is once again good to see you. Always a 
pleasure. We appreciate your service to our country. It has 
been second-to-none.
    As we all [inaudible] for disasters, do you believe that 
FEMA should retain the lead of the Federal Government's 
response to coronavirus, Mr. Fugate?
    Mr. Fugate. Yes, I was always--I found it fascinating when 
they put FEMA in that lead role, because if you think about 
FEMA, they are the ultimate support agency. Either we are 
supporting Governors in their response or we are supporting a 
lead Federal agency that has jurisdiction. In FEMA's history, 
this goes back to the Challenger disaster where FEMA was in 
support of NASA.
    By putting FEMA in the lead role, I think we lost a lot of 
the expertise that CDC should have had that FEMA could have 
supported.
    So I think FEMA's role as the Nation's crisis manager 
should be enforced, but I think it should also be seen that we 
want to make sure that the lead agencies with the jurisdiction, 
the legal authority, and the expertise are taking that lead and 
FEMA is supporting it and hopefully making them more 
successful.
    Mr. Payne. Thank you.
    Mr. Ghilarducci, same thing.
    Mr. Ghilarducci. Yes, I will agree with Craig. I think that 
the topic area is that not necessarily FEMA being the lead 
agency but being the lead coordination agency at the Federal 
level.
    Obviously, much like we have done here in California, our 
Health and Human Services is the lead agency dealing with the 
pandemic, but my office is providing the overarching 
coordination.
    I bring all the other State agencies and departments 
together. I interface between the State and Federal 
Governments. I ensure that we are all rowing in the same 
direction so that we are not wasting time and we are not 
stovepiped in our effort or in our commitment of resources.
    So that is really, I think, from the National perspective, 
FEMA brings a great role and they understand emergencies on a 
National scale. They have relationships with all the State 
directors and they go down to the local.
    All disasters are local, and we have to look at it from 
that perspective, how these events are impacting local 
governments and State governments.
    So I think that FEMA has got that ability to look at the 
big picture and make sure that action plans and the direction 
of the Federal Government are in the best interest and support 
of State and local governments.
    Mr. Payne. Thank you.
    Mr. Currie, what impact does constantly shifting who bears 
responsibility for response activity have on the Federal 
Government's ability to effectively manage a Nation-wide 
emergency?
    Mr. Currie. Well, I think the roles and responsibilities 
being clear is critical in this case. I think, just to go off 
some of the prior responses to your questions, I think we were 
victims of past successes in other situations.
    You know, typically in situations like H1N1 and Ebola and 
Zika and everything we have had over the last 50 to 60 years, 
HHS and CDC have been able to handle the response to those 
public health emergencies.
    So, because of that, the structures we have had in place to 
deal with public health emergencies and pandemics is focused on 
their role and their responsibilities, which is appropriate. 
They have the medical expertise necessary.
    But what is clear in this case is they did not have the 
logistical capability that was required in a large pandemic.
    So moving forward, I think the key is going to be for us to 
figure out what new structures and new processes and roles and 
responsibilities need to be in place to handle the rest of this 
pandemic, and hopefully we don't have one, but one in the 
future as well.
    Mr. Payne. Thank you.
    Also, Mr. Currie, how do you think deficiencies hindered 
FEMA's ability to properly develop and execute procurement 
strategy for COVID-19 given the scale of staff work on these 
issues? What is the No. 1 outstanding recommendation you think 
that FEMA needs to address?
    Mr. Currie. Well, a couple come to mind in this case. The 
first is I will throw out the contracting issue, which has been 
a huge challenge. Chairman Thompson pointed this out in his 
opening statement. After Hurricane Maria, we had challenges 
trying to fill needs for tarps and other things.
    So in a huge disaster this is very typical, where you have 
exhausted all your preexisting advance contracts and so you go 
out looking for anybody that can fill those things, and it is 
not surprising that you come across contractors that don't have 
the capability.
    So I think we have got to get better in FEMA working with 
the States on advance contracting and existing contracts to 
handle these types of things, especially in a pandemic 
situation where cases are going up and down in certain places, 
more tests are needed in some places and less in others. It is 
a constantly-evolving situation and unless we have advance 
contracts that can scale where the need is [inaudible].
    Mr. Payne. I know my time has expired. I yield back.
    Ms. Torres Small. Thank you.
    The Chair will now recognize other Members for questions 
they may wish to ask the witnesses. As a reminder, I will 
recognize Members in order of seniority, alternating between 
Majority and Minority. Members are reminded to unmute 
themselves when recognized for questioning.
    The Chair recognizes for 5 minutes the gentleman from 
Louisiana, Mr. Higgins.
    Mr. Higgins. Thank you, Madam Chairwoman and the Ranking 
Member and my colleagues on both sides of the aisle. It is 
wonderful to see you all, and I look forward to return to 
regular order where we can meet in person.
    Madam Chairwoman, America's supply chains should be based 
out of long-term dependable trade partners in the United States 
or with stable, reliable nation-states based upon relationships 
similar to USMCA.
    The dependability of our supply chains, especially as it 
regards to things like PPE in response to something like this 
we have never seen before, this challenge that we are together 
overcoming one way or another is going to make us stronger, and 
I believe our supply chain is a primary example of that.
    These supply chains should be multi-layered, in my opinion, 
and many of my colleagues agree, established by the Federal 
Government, by State and local governments, and by private 
business end-users that have, generally speaking, established a 
just-in-time, very efficient, economically efficient, but in 
response to a pandemic, where Nation-wide we need untold, 
previously-unimagined volumes of PPE, the just-in-time model 
just doesn't work.
    Now, I must say that there have been some rather ugly 
things stated about our executive, who has responded, in my 
opinion, by rebuilding the Federal infrastructure. It has been 
incredibly re-envisioned and greatly enhanced over the last 6 
months in a robust response to a new and aggressive virus born 
of China and knowingly released across the world as the Chinese 
Communist government concealed their actions.
    President Trump and Vice President Pence have done an 
incredible job to literally rebuild America's pandemic response 
infrastructure. This is something we have never seen before. 
May I say that our President inherited a system that was set up 
by previous Presidents, not to blame President Obama and Vice 
President Biden, nor President Bush. But previous 
administrations had established a system that President Trump 
inherited and we just didn't see this coming as a Nation.
    So I think it is fair to be critical, and it is our job to 
provide oversight, but let us take a step back from the 
political abyss that we stare at and give a fair evaluation of 
what our executive has done and how they have performed.
    Ms. Torres Small. Mr. Higgins, I deeply apologize. I would 
never want to interrupt your time normally, but due to 
technical issues we need to recess.
    Members, please remain on the platform. The committee will 
stand in recess subject to the call of the Chair and your time 
will be restored.
    Mr. Higgins. Thank you, ma'am.
    Ms. Torres Small. Apologies.
    We are in recess.
    [Recess.]
    Ms. Torres Small. The committee will reconvene.
    The Chair now recognizes for 5 minutes the gentleman from 
Louisiana, Mr. Higgins.
    Mr. Higgins. Thank you, Madam Chairwoman.
    Let me say that I very much admire and greatly respect you. 
You have been the face of calm and reason during this 
technological challenge. It is very clear to me and to my 
colleagues on both sides of the aisle, I am quite sure, why the 
people of your district have placed their faith in you.
    That being said, I am going to be submitting my opening 
statement and question in writing. I am being pulled to another 
Congressional obligation at this time. I will be yielding the 
balance of my time to the Ranking Member.
    But before I do so, let me say that, despite the best 
efforts of our colleagues, I say again that I call upon the 
Majority to consider allowing the House to return to regular 
order and voting in person. Let's step away from proxy voting 
and remote committee appearance. Because, again, despite the 
best efforts, the technology is not quite there yet.
    I would say that we need to be in person regardless, but 
during a time of emergency, it could be foreseen that this is 
required. We have learned a great deal.
    However, I will be continuously calling for the return to 
regular order. It is within the Constitutional parameters that 
I believe we should serve.
    You have been fantastic during this hearing and this 
challenge. I apologize to our witnesses. I will be yielding the 
balance of my time to the Ranking Member.
    I yield now.
    Mr. Crenshaw. Thank you, Representative Higgins. I couldn't 
agree more. I think the way you presented your case is exactly 
right. This not a hit on this subcommittee at all. This is a 
hit on the entire Congress. It has to stop.
    We all know full well, we are all common-sense people, we 
all know that we could do this in person and show the American 
people that we have just a modicum of courage, just a little 
bit. It would be easy. We don't have to all congregate in there 
at the same time. Usually we don't anyway. Most of us watch 
from our office and then go in when it is our turn to ask 
questions. We could easily socially distance. We could wear 
masks. We could take all the proper precautions. We could 
easily do this. Yet, our House of Representatives has chosen 
not to.
    This isn't the first time we have had technical problems. 
Of course we are going to have technical problems. Many other 
committees have it and we have had it in this committee as 
well.
    Again, this is not the Chairwoman's fault. This is 
leadership from the top.
    This is more than just about technical problems. It is 
about the ability to demonstrate to the American people that we 
have just a little bit of courage, just enough to actually show 
them that we are willing to take the slightest amount of risk 
just to do our jobs, so that we can actually hear our witnesses 
instead of the garbled robotic mess that it sounded like at 
times when I was trying to listen to them. We could actually do 
our jobs.
    But we have sort-of reversed what it means to have a sense 
of duty in this country. Whereas it used to mean that we looked 
up to our heroes who overcame adversity and looked back on 
their hardship and said, ``Look what I did, look what I 
overcame,'' now we seem to elevate victimhood as a virtue. We 
say, ``Look at the problems we face. And look at us, we must 
hide. And that is virtuous, that is heroic.''
    It is not heroic. We look like fools. We need to stop. We 
need to do better.
    We can easily do this. We all know how. We all know we 
could.
    I think that we should be asking our leadership to put us 
back into Congress, in person. Stop the vote by proxy. We know 
we can do this safely. We have learned enough about this virus. 
We can do this by now. We could demonstrate to the American 
people that we are in this together and that we are willing to 
do our duty and do our job. It really is as simple as that.
    This is a highly unnecessary technical mess that we have 
involved ourselves in and I hope we stop.
    I yield back the remainder of my time.
    Ms. Torres Small. Thank you, Mr. Ranking Member.
    The Chair now recognizes for 5 minutes the gentlewoman from 
Illinois, Ms. Underwood.
    Ms. Underwood. Thank you, Madam Chair.
    As a public health nurse, I have been disappointed and, 
quite frankly, horrified by this administration's failure to 
equip our health care professionals and others on the front 
lines of this pandemic with the supplies that they need to stay 
safe while doing their jobs.
    Thirteen of my colleagues from the Illinois delegation 
joined my letter to the President back in March urging the 
administration to lead a coordinated National plan to procure 
and deliver PPE where it was needed most. Even in March, we 
were already getting tearful phone calls from Illinois nurses 
who had worn the same single-use mask for 5 days straight. This 
is unacceptable.
    Yet somehow, 4 months later, we find ourselves still unable 
to obtain and distribute essential supplies to meet our basic 
needs. This is a colossal failure of leadership with truly life 
and death consequences.
    I am glad our witnesses are here today to help us figure 
out what went so wildly wrong and to discuss improvements that 
need to be made.
    Mr. Fugate, as you know, one of the most important supplies 
for health care workers is the N95 mask, which protects the 
wearer from inhaling the virus. In March, the White House 
promised to deliver 300,000 N95 masks to my State of Illinois. 
When the shipment arrived, the boxes were found to instead 
contain surgical masks, which are looser and do not provide 
anywhere near the same level of protection for the wearer as 
the N95 masks.
    Based on your experience overseeing emergency management at 
the Federal level, what concerns does this type of mix-up raise 
for you about this administration's coordination of the 
National response to this pandemic?
    Mr. Fugate. Well, I don't think it is so much a mix-up, I 
think it is what they had available.
    It goes back to my original concerns that in facing a novel 
virus, we never looked at how big the numbers needed to be. I 
think that is why we were not making decisions early on, such 
as increasing domestic production of N95 masks, reprioritizing 
that system. We just never took the steps to know how big is 
this.
    We always, I think, adjusted based on what was available 
and tried to increase that, but we never got to what was going 
to be the big number, and so we still see those impacts today.
    Ms. Underwood. OK. Thank you.
    Illinois is currently in phase 4 of its data-driven 
reopening strategy. As more and more local businesses resume or 
increase their operations, and as we prepare to safely reopen 
schools this fall, we need PPE, and it is only going to 
continue to increase.
    Mr. Fugate, how should the administration be preparing to 
meet the increasing need for PPE across the country?
    Mr. Fugate. Well, yes, I think it goes back to, what is the 
number we are planning against? How much domestic production 
can ramp up? What can our international supply chain supply? 
What is the difference of that or delta? Then what would we do 
to close that gap?
    Again, we know that the N95s are most critical for health 
care workers. But for others, surgical masks or lesser grade 
protection is actually meeting the CDC guidance.
    So it comes back to, what is the big number we have got to 
plan against? What is our capability domestically? What is our 
international supply capability? What is the difference? Then 
what steps can we take to close those gaps?
    Ms. Underwood. In addition to the administration's own 
failure to provide the correct materials, another challenge our 
front-line workers and State leaders have had to contend with 
is fraud.
    An investigative journalist at ProPublica broke a story 
last month about an operation that repackaged non-medical grade 
masks to remove the ``medical use prohibited'' warning and then 
they sold those repackaged masks to a Texas emergency manager 
for use in hospitals.
    When the reporter contacted Homeland Security 
Investigations to ask about this case, his replied only that 
they are trying to, ``determine if any violations exist or 
mishandling occurred''.
    Mr. Fugate and Mr. Ghilarducci, can you each expand on why 
the proliferation of fake equipment is so dangerous? What role 
does a successful Federal response play in preventing this?
    Mr. Fugate. Well, this goes back to when you have 
shortfalls in critical supplies people will attempt to use that 
to provide products that may not meet the standards.
    As we saw with that investigation, in a grey market area it 
is not always clear what the violations were. If we had a 
better handle on domestic production and it was more regulated 
I think we could address some of these concerns.
    But at the time that FEMA and others were going out 
procuring, there was not time to go out and do due diligence. 
Almost all of that was done electronically. So it wasn't until 
you actually had product showing up that in many cases you 
found out that it wasn't what the teams thought they were 
ordering.
    Ms. Underwood. Well, at the end of the day scammers will 
take advantage of unmet consumer needs. Right now we see 
scammers providing everything from fake tests to useless PPE. 
Especially in the middle of a global pandemic the 
responsibility should not be on consumers to authenticate their 
PPE or tests.
    With that, I yield back. Thank you.
    Ms. Torres Small. Thank you.
    The Chair now recognizes for 5 minutes the gentleman from 
North Carolina, Mr. Bishop.
    Mr. Bishop. Thank you, Chairwoman Torres Small, very much.
    I think I want to follow up, Mr. Fugate, on the questions 
Ms. Underwood just asked. There seems to be--and I had occasion 
to ask a question of Governor Pritzker about this--there seems 
to be a sort-of a chorus of condemnation of the administration 
for not having an overall coordinated response. It seems to be 
mostly connected to the question of how much PPE has been 
available.
    But you can't just wish PPE into existence and put it in 
the right spot. Isn't that correct?
    Mr. Fugate. That is absolutely correct.
    Mr. Bishop. You just explained in response to Ms. 
Underwood's question that having a quantity of PPE to meet a 
sudden huge need is a logistics problem, that you have got to 
get production capacity in place. If it is not sufficient, you 
have got to add to it. You have to figure out from a disparate 
number of economic actors across our economy and maybe the 
economy around the globe how to get items produced that don't 
currently exist and then get them delivered to the right place, 
correct?
    Mr. Fugate. Yes, sir.
    Mr. Bishop. Is it necessarily so that a Federal, any 
Federal administration, yours or the current one, faced with an 
unprecedentedly large demand that is sudden, is necessarily 
going to get that problem solved faster by taking control of 
the entire market through the Defense Production Act or the 
like?
    Mr. Fugate. When we war gamed what a pandemic looked like, 
that turned out to be our only option. It is a drastic tool. It 
has lots of disruption.
    However, what we found was, because we had built a just-in-
time health care system, it was going to take a draconian tool, 
like the Defense Production Act, to even begin to meet the 
needs, and then there was not going to be a rapid response to 
it.
    So it would have to be turned on relatively early when 
their numbers often wouldn't justify that action, but by the 
time the numbers did, we were too far behind.
    As we had explored this, this became one of the themes. 
Failure to turn on Defense Production Act early, your strategy 
now became one of hope you could meet demand. Turn it on early, 
you could meet demand, but if there wasn't a need for it, it 
caused a big disruption.
    So it is not a precise tool. It goes back to the whole 
issue of there is no slack in the system for health care. That 
exacerbates what we are seeing now, that there wasn't even 
reserves to start with in most of the health care industry 
because everybody is just timing delivery, those stockpiles, 
they don't prepare for this, and the Federal Government became 
the default for this.
    Mr. Bishop. I appreciate your candor in having described 
that now a couple times, that the issue is one of many years in 
the making. I think it is unfortunately very counterproductive 
to go try to assess blame on that. The decisions are what they 
are. It is a resource allocation issue. It has existed for 
many, many years.
    But let's take, for example, because it seems to persist, 
the notion, as you say, that using the DPA would be your only 
tool, but it wouldn't necessarily in the short term mean that 
you could be sure from that decision point at the beginning of 
the crisis that you were going to produce more in the short 
term by using that than in allowing market mechanisms to 
function. Isn't that so?
    Mr. Fugate. No, sir. Market mechanisms are why we are in 
the situation we are with a just-in-time delivery system. It is 
the most cost-effective way to run it. It doesn't return to 
shareholders. An inefficient system would have had a lot more 
capacity to ramp up.
    DPA actually does not start out with taking over 
manufacturing. The first thing, which was early on, DPA gives 
the Federal Government to go out and procure very large 
quantities and also prioritizes those products being 
domestically produced or coming into the country where they are 
needed most.
    That can happen immediately with DPA. We used it during 
Superstorm Sandy to get interpreters.
    So it is a tool that gives you immediate response if there 
is product there, and that ultimately gives you the ability to 
redirect industry to meet a strategic need that otherwise would 
not have been met if you only went to a driven capital system.
    It hasn't built that capacity. There is no reason why you 
would have excess capacity unless you had some incentives, 
either through tax credits or guaranteed markets that required 
to you purchase that. It is not fair to industry to say you 
should solve this problem if we are not going to build in the 
tools to ensure production exists.
    Mr. Bishop. So you are talking about a long-term incentive 
solution, though, that would build more capacity to be in place 
over the long-term, correct?
    Mr. Fugate. Yes, sir. Pandemics are just one example of our 
global supply chain, the vulnerabilities we have in critical 
infrastructure when we depend upon global supply chains where 
the suppliers may not always share our views or interests.
    Ms. Torres Small. Thank you, Mr. Bishop.
    The Chair now recognizes for 5 minutes the gentlewoman from 
California, Ms. Barragan.
    Ms. Barragan. Thank you, Madam Chairwoman.
    Thank you to our panelists for being here today.
    As I have heard the testimony, I am a little surprised to 
be hearing so much of how wonderful the response was or how it 
couldn't have been done better.
    I have heard and have read a lot differently. I have read a 
lot more about the administration's failures early on. In late 
January, we had Dr. Bright warning about the lack of PPEs, 
having to ramp it up quickly. Those calls went ignored. We had 
the President basically saying this thing was going to go away, 
it was going to disappear, making the mask very politicized.
    So there have been a lot of failures with this 
administration, which is why I think it is so critical that we 
have these hearings and we make sure we don't repeat what has 
happened here, and that we be honest with the American people, 
because honesty will save lives. Even if we don't like what the 
outcome is going to be or what people's fears are, we have to 
address those.
    I want to direct my first question to you, Mr. Fugate.
    As part of the response to homelessness during COVID-19, 
FEMA has committed to reimburse 50 to 75 percent of expenses 
for shelter and temporary housing through the Public Assistance 
Program Category B. However, some local governments and 
agencies, like the Los Angeles Homeless Services Authority, 
have expressed challenges with the FEMA program, such as not 
knowing whether the program will be extended for the coming 
months.
    Along the same lines, they have been told that it could 
take 4 to 5 years for localities to receive FEMA 
reimbursements.
    Mr. Fugate, in your experience as the former administrator, 
is there anything FEMA could be doing to better notify 
localities if programs will expire or be extended?
    Mr. Fugate. Yes. This goes back to--and I am sure Director 
Ghilarducci can amplify this--is if FEMA is given the authority 
to extend this--again, these declarations are at the direction 
of the President, so the White House would have to concur--they 
could give guidance to States what the programs are, what the 
likelihood of being extended are.
    As far as reimbursement goes, yes, it can be a long time. 
It can also be done in 2 weeks, which we did in Hurricane Isaac 
in the city of New Orleans for their overtime.
    So FEMA doesn't have to take forever to move the money, but 
there has to be an understanding that the faster FEMA moves 
money, the greater risk there will be of errors and the 
potential that there may be a requirement to seek 
reimbursements back.
    I think the other thing is the cost share is something that 
should be factored in, that it is 75 percent Federal, it is 
never going less than 75 percent. But the cost share going up 
to 100 percent may also be required in those jurisdictions that 
are seeing both impacts of COVID-19 demand as well reduction in 
income.
    Ms. Barragan. Thank you, sir.
    Along the same lines, last week the mayor of Tupelo, 
Mississippi, testified that they are still waiting on 
reimbursements from FEMA after a 2014 tornado caused major 
damage to the city. That was 6 years ago.
    Can we expect localities to wait this long for FEMA 
reimbursements? How can we speed up the process to ensure that 
local governments quickly receive their reimbursements?
    Mr. Fugate. We were doing reimbursements and still doing 
reimbursements for Hurricane Katrina in New Orleans. In fact, 
in my last year at FEMA we were approving a million-dollar 
grant on a waste water treatment system, a waste water system.
    So the rebuilding process is reimburse, ask, and build 
back. That can take a while.
    I am more concerned about the immediate cost, which is 
protective [inaudible] response cost, that FEMA should be 
moving that money out very quickly. Congress has provided the 
funding.
    But this may be something our friends at the General 
Accounting Office can weigh in on, is sometimes we get so 
fearful of making mistakes we slow the process down with 
bureaucracy instead of focusing on getting money out quickly 
and cleaning up later with controls in place. Sometimes there 
is just such a fear of making mistakes we end up holding so 
much process we never seem to get the money out quickly.
    Ms. Barragan. Thank you, sir.
    Mr. Ghilarducci, California was one of the first States 
faced with managing with the coronavirus, especially as it 
received repatriation flights and returning cruise ships when 
the outbreak began.
    Can you tell us more about the evolution of your 
coordination with the Federal Government on response efforts? 
Did you notice a difference once FEMA took over as the lead?
    Mr. Ghilarducci. Thanks for the question.
    So California was engaged early on when the first 
repatriation flights were brought back in. We worked with the 
Department of State initially and then Health and Human 
Services agency first to set up our repatriation center in one 
of our airports in southern California, Ontario.
    It became clear pretty quickly that that wasn't going to be 
sufficient. We needed brick-and-mortar facilities to keep 
people separated.
    That was our first indication that the virus and the 
[inaudible] were happening in China and the repatriation 
members that were coming back could be potentially sick. So we 
worked to get brick-and-mortar barracks at March Air Force Base 
initially for the repatriation. That of course then extended 
into Travis Air Force Base in northern California and then 
Miramar Naval Air Station.
    Ms. Torres Small. Mr. Ghilarducci, I appreciate it.
    I apologize, the gentlewoman's time has expired.
    The Chair now recognizes for 5 minutes the gentlewoman from 
New York, Ms. Clarke.
    Ms. Clarke. Thank you very much, Madam Chair.
    Let me thank our Ranking Member, Mr. Crenshaw, and 
Congressman Donald Payne, Jr. of New Jersey for the leadership 
that they are showing.
    Let me thank our expert witnesses as well.
    Being a New Yorker, I think that I have a very unique lens 
into the response of the administration. At the beginning of 
the COVID-19 pandemic I signed a letter calling on the White 
House to invoke the Defense Production Act to meet the 
shortfall of PPE and other official supplies--other critical 
supplies facing my district.
    The people of New York City were hit first by this 
pandemic. As we cried out for PPE and ventilators, our pleas 
were met with a collective shrug from the administration.
    By the time of the Defense Production Act, the limited way 
in which it was utilized, was finally invoked, frankly, it was 
too late.
    As the case numbers begin to rise again across this Nation, 
we are once again finding this administration, I believe, 
asleep at the wheel.
    We have had months to prepare, but comprehensive contact 
tracing is still far from a reality, and even basic supplies 
are once again in short supply.
    For example, FEMA repeatedly touted Project Airbridge as a 
success story in accelerating the importation of critical PPE. 
FEMA has indicated that at least 50 percent of those supplies 
were directed to hotspot areas.
    But there has been a serious lack of transparency to 
confirm this actually occurred. Despite repeated requests, we 
have yet to receive information on where the supplies went and 
other basic details, like how long it took to coordinate each 
flight.
    You know, I will tell you that it is important to have this 
transparency, because we are getting word on the ground, 
particularly in the height of the pandemic, that FEMA was 
actually redirecting critically-needed supplies that were 
intended for one portion of the Nation to other portions of the 
Nation. I don't know whether that is true or not, but having 
transparency about what took place would answer those 
questions.
    So my first question is for Director Ghilarducci.
    How effective was the Airbridge in helping to meet your 
State's supply needs? Were you given any insight into where 
these supplies went or whether a county in your State was 
deemed to be a hotspot for the sake of the program to better 
coordinate the State's efforts to surge PPE into communities?
    Mr. Ghilarducci. Thanks for the question.
    So Operation Airbridge eventually became a helpful tool. 
Initially it was not coordinated with the States. It was not 
communicated effectively. We did not know where PPE would be 
distributed to.
    Quite frankly, the Airbridge effort actually enhanced the 
competition by which the States were having to deal with. In 
essence, Operation Airbridge cornered the market in any 
available PPE that we could possibly get.
    So I think in the end, if it was a more coordinated and 
communicated effort and that PPE was brought in as a central 
capability that we could have all benefited by, it would have 
worked much better. But, unfortunately, it did not work that 
way.
    Ms. Clarke. All right.
    Administrator Fugate, I want to echo the sentiments of my 
colleagues. We appreciate your years of service, your 
dedication, and your focus.
    In many respects, as all of my colleagues have indicated, 
you were sort-of blindsided by the scope and breadth and depth 
of what we have had to deal as a Nation with respect to the 
coronavirus and its spread.
    But how does Project Airbridge compare to your experience 
establishing public-private partnerships while at FEMA 
throughout your tenure?
    Mr. Fugate. Well, if you remember during Superstorm Sandy, 
one of our challenges was getting utility trucks into the area 
quickly. President Obama held a conference call with utility 
companies. He said, if we have got equipment on the West Coast, 
but it's going to take us a week or more to get it to the East 
Coast, can you call us?
    So FEMA coordinated with the Defense Transportation 
Command. We used C-17s from the time of that call to the first 
touchdown of those trucks. It occurred within 24 hours.
    So we have worked with the private sector. In fact, we look 
at the private sector as part of the team. We have used 
[inaudible] assets, including DOD assets, to move equipment 
from the private sector to achieve an outcome, which was 
getting utilities turned on faster in Superstorm Sandy.
    Ms. Clarke. Very well. I yield back. I thank you, Madam 
Chair, for this very timely hearing. These important findings 
will make a difference in life and death across this Nation. I 
thank you, and I yield back.
    Ms. Torres Small. Thank you Congresswoman Clarke.
    The Chair now recognizes for 5 minutes the gentlewoman from 
Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Madam Chair, for your 
kindness and generosity in yielding to me. I am here in one of 
the major hotspots of COVID-19, and we are not really seeing an 
end, which I think is the uniqueness of COVID-19, is that both 
science and medicine have now understood that it is not a virus 
that they control. The virus controls us.
    But we know that the basic elements of it are the 
initiatives that we had, are cleanliness, sanitizing, gloves. 
Eyewear has come into play, as I am wearing right now. Masks 
and mandatory mask orders.
    But we also know that in the system of logistics and 
equipment we suffered greatly in being prepared. We suffered 
greatly with no PPEs. We were fighting--and I really mean it--
fighting for masks. We were seemingly on markets that were 
impossible to penetrate in terms of trying to get PPEs.
    Of course the big one was test kits, test kits, test kits. 
I would hear from my colleagues across the Nation: ``Where are 
the test kits? I can't get any.''
    Administrator Fugate, we have worked together in the past 
over the years with hurricanes. I think, if I know you well, 
your key definition is preparedness.
    I would like to hear again, in light of Texas over 235,000 
cases, now moving up to 6,000 deaths here in Houston, 60,000 
[inaudible] and the number of deaths that we have as our 
numbers continue to grow. I have a hospital right now where we 
are getting the military team not in the hospital, but working 
through a hospital where a military team will be coming to add 
to our needs here in terms of staffing.
    Administrator Fugate, can you speak to the absolute 
crucialness of strategic plans, particularly on unknown 
disasters like a COVID-19, and the importance of early on 
developing a plan for equipment, which would include please 
testing, which I understand that people in Florida right now 
are fighting to get tests?
    Mr. Fugate. Thank you, Congresswoman.
    You know, it may sound trite, but what I have learned in 
disasters is by the time you know how bad something is, it is a 
little late to achieve the outcome. I learned this a long time 
ago and it is a simple process. It may sound trite but it works 
for me.
    First thing is, define the disaster, think big. Don't try 
to wait until you have all the information, just go, how bad 
could it be? Then continue to go big. You have got to start 
ordering your resources and personnel for that event and 
looking at shortfalls and capacity. You need to go fast. The 
more precision, the better you wait for information, the slower 
you get.
    The last part is be smart about it. As the numbers start 
coming in, adjust. Hopefully you are adjusting downward. But 
you never get time back in a disaster.
    Again, as far as this being unforeseen and unprecedented, I 
actually helped set up an exercise back in January in the State 
of Florida, a no-notice exercise on COVID-19.
    I think we have had a lot of missed opportunities. I think 
this has gotten to a point where nobody wants to talk about 
what didn't work.
    I think we also need to consider something like a National 
Transportation Safety Board-style committee that is standing, 
that is not partisan, to review these types of events, to learn 
lessons so they don't become lessons observed but are actually 
then implemented in the changes to change future outcomes.
    Ms. Jackson Lee. Administrator, if I could very quickly, my 
research and testimony that I secured in the Homeland Security 
Committee hearing was that the administration actually was 
aware of COVID-19 as early as October 2019, which means we 
should have long since had some kind of discernible plan.
    But there are two issues that I would like your comment on. 
I know already that you are not an educator but a great public 
servant.
    The issue of tests, test kits, that became almost of crisis 
proportion with people really literally in the streets trying 
to beg for test kits, trying to get States to get test kits. It 
was unbelievable. We are now with lines of people in different 
cities trying to get test kits.
    It emphasized when you have something that is so 
strategically important to fighting back the disaster which is 
COVID-19, how important it is to get ahead of that.
    Then any comment on what elements we should look at as 
school districts across the Nation want to do the best thing 
for their students in light of the circumstances that you see. 
You are not a physician, I know that, but in terms of being 
prepared.
    Thank you. Thank you for your service.
    Mr. Fugate. The test kits are really critical if we can get 
containment. When we are seeing the infection rates we have 
now, I don't think testing is going to change the outcome. If 
we get containment and then we can test people and isolate 
people that are exposed, we will get this under control.
    But if we can again go back to [inaudible]. How big and how 
much would you need in a worst-case scenario? Not what the plan 
says, not what you think you are going to need, but just go, 
``How bad could this be?'' and then start working backward.
    Ms. Torres Small. Thank you, Mr. Fugate.
    Ms. Jackson Lee. Thank you for the courtesy.
    Ms. Torres Small. Thank you, Congresswoman.
    I so appreciate everyone's patience in the midst of all of 
this. I know we have a hard out at 12:30.
    So I just want to close by thanking the witnesses for their 
valuable time, patience, and testimony.
    I want to thank all the Members for their questions, 
patience, and dedication to serving their districts. I deeply 
respect my colleagues and I do not judge any differences we may 
have in opinion for a lack of courage in the way they serve 
during this crisis that we face together.
    The Members of the subcommittee may have additional 
questions for the witnesses and we ask that you respond 
expeditiously in writing to those questions.
    Without objection, the committee record shall be kept open 
for 10 days.
    Hearing no further business, the hearing stands adjourned.
    [Whereupon, at 2:28 p.m., the subcommittees were 
adjourned.]

                                 [all]
</pre></body></html>
